<html>
<title> - PEACE CORPS AT 50</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                           PEACE CORPS AT 50

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 11, 2011

                               __________

                           Serial No. 112-16

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
66-292                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afc8dfc0efccdadcdbc7cac3df81ccc0c281">[email&#160;protected]</a>  



                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Lois Puzey, parent of late Peace Corps volunteer.............    22
Ms. Carol Clark, former Peace Corps volunteer....................    37
Ms. Jessica Smochek, former Peace Corps volunteer................    46
Karestan Chase Koenen, Ph.D., former Peace Corps volunteer.......    58
Ms. Jennifer Wilson Marsh, hotline and affiliate service 
  director, RAINN................................................    73
The Honorable Aaron S. Williams, Director, Peace Corps...........    96
Ms. Kathy A. Buller, Inspector General, Peace Corps..............   117

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Committee on Foreign 
  Affairs:
  Statement from Chuck Ludlam and Paula Hirschoff, returned Peace 
    Corp volunteers..............................................     4
  Letter dated May 6, 2011, from Building Bridges Coalition......    12
  Prepared statement.............................................    14
Ms. Lois Puzey: Prepared statement...............................    25
Ms. Carol Clark: Prepared statement..............................    39
Ms. Jessica Smochek: Prepared statement..........................    48
Karestan Chase Koenen, Ph.D.: Prepared statement.................    60
Ms. Jennifer Wilson Marsh: Prepared statement....................    75
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas: Questions/statement............................    85
The Honorable Aaron S. Williams: Prepared statement..............    99
Ms. Kathy A. Buller: Prepared statement..........................   119

                                APPENDIX

Hearing notice...................................................   138
Hearing minutes..................................................   139
Written responses from the Honorable Aaron S. Williams to 
  questions submitted for the record by:
  The Honorable Ileana Ros-Lehtinen..............................   141
  The Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................   151
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........   153
The Honorable Niki Tsongas, a Representative in Congress from the 
  Commonwealth of Massachusetts: Statement.......................   154
International Society for Traumatic Stress Studies: Statement....   157


                           PEACE CORPS AT 50

                              ----------                              


                        WEDNESDAY, MAY 11, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order. 
After recognizing myself and the ranking member, my good friend 
Mr. Berman of California, for 7 minutes each for our opening 
statements, I will recognize each member of the committee for 1 
minute for their opening remarks. We will then hear from our 
witnesses.
    I ask that you summarize your prepared statements in 5 
minutes each before we move to the questions and answers with 
members under the 5-minute rule. Without objection, the 
witnesses' prepared statements will be made a part of the 
record. And members may have 5 days to insert statements and 
questions for the record subject to the length limitation in 
the rules.
    We apologize if it looks like it is a sparsely attended 
hearing. We have the GOP Caucus going on now, the Democratic 
Caucus, and about five different committees having briefings 
and hearings as well. So it will slowly build up.
    The chair now recognizes herself for 7 minutes.
    March 1st, 2011 marked the 50th anniversary of the 
establishment of the Peace Corps. We initially planned to hold 
this hearing in March, but postponed it to accommodate the many 
anniversary celebrations.
    Over 200,000 Americans have served in the Peace Corps. 
Today, there are over 8,000 Peace Corps volunteers serving in 
77 countries. Three hundred of these volunteers are from the 
State of Florida, and 9 are from my own district. According to 
the Peace Corps' facts and figures, 60 percent of current Peace 
Corps volunteers are female, and the average age of a Peace 
Corps volunteer is just 28 years old.
    For half a century, Peace Corps volunteers have given their 
generous talents and skills to help the poor in developing 
countries, thereby increasing understanding between diverse 
cultures. For many, these Peace Corps volunteers serve as the 
only American faces to visit faraway places in distant lands, 
and volunteers should be proud of their accomplishments, as 
there are many to celebrate.
    In spite of these successes, it is time to examine how, 
after 50 years, the Peace Corps is faring. In particular, we 
must review how the Peace Corps, as an institution, has 
supported Peace Corps volunteers.
    Despite critical reports by its own Inspector General, the 
Government Accountability Office, and prior congressional 
hearings, Peace Corps' safety and security failures have been a 
recurrent problem with tragic consequences for thousands of 
volunteers. Some who seek to ignore those problems have 
asserted that volunteer service, itself, is inherently risky as 
an excuse for lax and ineffective safety and security measures. 
That attitude is unacceptable.
    Clearly, the conditions under which Peace Corps volunteers 
serve present unique challenges. Volunteers are often deployed 
to areas with restricted access to reliable communication, with 
limited or no police or medical services. Volunteers may have 
only a basic understanding of local language and culture, and 
may be viewed as relatively wealthy--becoming targets for 
criminal activity.
    According to an April 2010 audit report by the Peace Corps 
Inspector General,

        ``If compared to public colleges and universities, the 
        Peace Corps would rank first for the most robberies, 
        second for the most burglaries, and seventh for the 
        most aggravated assaults. Further, in comparison to 
        crime statistics reported by countries around the 
        world, Peace Corps volunteers experience higher rates 
        of rape and burglary than any of the 86 countries that 
        responded to the United Nations crime statistics 
        analysis.''

    Historically, the media have downplayed the dangers of 
serving in the Peace Corps, and have underreported and 
overlooked any criticism of the Peace Corps. Recently, this 
immunization has started to subside.
    In 2003, the Dayton Daily News released its seven-part 
series entitled, ``Casualties of Peace.'' Former Dayton Daily 
News Editor, Jeffrey Bruce stated,

        ``The extent of this safety problem has been disguised 
        for decades, partly because the assaults occurred 
        thousands of miles away, partly because Peace Corps has 
        made little effort to publicize them, and partly 
        because the agency deliberately kept people from 
        finding out--while emphasizing the positive aspects of 
        the Peace Corps.''

    Earlier this year, on January 14th, the ABC television news 
program, 20/20, exposed the Peace Corps' failures regarding the 
reporting of sexual assault and rape, which spurred many 
victims to come forward about the mishandling of their cases. 
According to dozens of disturbing affidavits received by our 
committee, the Peace Corps' mishandling of rape and assault 
spans over four decades. Several of the affidavits are from 
volunteers currently serving in the Peace Corps. The affidavits 
received by the committee were obtained by First Response 
Action, a support group of volunteers who were victims of rape 
or assault.
    The affidavits establish five basic themes: Volunteers are 
generally inadequately trained on sexual assault issues; 
volunteers are often placed in dangerous situations; the Peace 
Corps' in-country response often fails to meet survivors' 
needs; upon return to the United States, survivors often 
receive hostile rather than supportive treatment; and, lastly, 
institutional obstacles often prevent survivors from receiving 
long-term medical and mental health care.
    Without objection, I would like to include these affidavits 
into the official record.
    [Note: The Peace Corps volunteer affidavits are not 
reprinted here but are available in committee records and on 
the committee's Web site.]
    Chairman Ros-Lehtinen. At this time, I would also like to 
include, without objection, a statement from returned 
volunteers, Chuck Ludlam and Paula Hirschoff, who have been 
advocates for reform to address problems with the Peace Corps, 
including safety and security.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Further, without objection, I would 
like to include for the record a statement from the Building 
Bridges Coalition, a consortium of 300 international volunteer 
organizations, regarding Peace Corps safety and security.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Finally, I will be handing Mr. 
Williams a letter from a constituent of mine who was serving in 
the Peace Corps but was recently terminated. I am asking the 
Peace Corps to explain why it did not accommodate the medical 
concerns of this older volunteer.
    At our hearing today, three returned Peace Corps volunteers 
have made the difficult decision to testify about their 
traumatic experiences, and I commend them for their bravery, 
and continued commitment to effect positive change in the Peace 
Corps.
    We will also hear from the mother of a Peace Corps 
volunteer who did not return home. Lois Puzey will testify 
about her courageous daughter and how the Peace Corps failed 
Kate when she reported the rape and abuse of students for whom 
she cared so deeply. Following this testimony, we will hear 
from Peace Corps Director Aaron Williams, and the Peace Corps 
Inspector General Kathy Buller. Our goal is to find ways to 
address these problems so that future Peace Corps volunteers 
will not fear for their safety.
    And we are joined today--thank you, Senator Isakson from 
Georgia. We are joined by Senator Johnny Isakson, whose 
constituent is Lois Puzey. Senator Isakson's presence is 
another indication of his commitment to securing justice for 
Lois' daughter, Kate, who was killed during her service as a 
Peace Corps volunteer in Benin. And I understand that Senator 
Isakson will be traveling there next week to get a further 
update on Kate's case.
    Now I am pleased to recognize my good friend, Ranking 
Member <greek-l>Mr.  deg.Berman for his opening remarks.
    [The prepared statement of Chairman Ros-Lehtinen follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Berman. Well, thank you very much, Madam Chairman. And 
thank you for calling this important hearing. And I want to 
second your commendation of Mrs. Puzey and the witnesses, other 
witnesses, who are coming forward to talk about something which 
cannot be that easy to talk about in such a public setting. We 
very much appreciate your courage in doing this.
    This year, as you noted, marks the 50th anniversary of the 
Peace Corps. Since its founding, nearly 200,000 volunteers have 
served in 139 countries around the world, promoting community-
based development, sharing American values, and enriching our 
own nation by bringing knowledge about other countries and 
cultures back to the United States.
    The distinguished list of Peace Corps alumni includes 15 
Members of Congress, 4 current members; cabinet members; 
ambassadors; noted journalists; scientists; educators; and many 
others, who are leaders in their fields making an impact around 
the globe.
    No agency with such a modest budget has done more than the 
Peace Corps to extend America's presence in nearly every part 
of the world. For that reason, it has enjoyed the strong 
support of both Republican and Democratic administrations. 
However, all of us were deeply troubled by the recent ABC news 
20/20 segment, which detailed the circumstances surrounding the 
murder of a volunteer in the West African nation of Benin and 
the sexual assault of volunteers in a number of different 
countries.
    The Puzey family was not provided adequate support after 
the death of their daughter, from the manner in which they were 
notified to the way her personal effects were returned home to 
the lack of explanation of the circumstances that led to her 
murder.
    By failing to provide Ms. Smochek with the protection she 
had requested or removing her from her site, Peace Corps left 
her open to an attack that could have cost her life. By 
providing inadequate training to Peace Corps staff and 
volunteers on how to prevent and respond to sexual assaults, 
the volunteer community is left vulnerable to physical and 
psychological trauma.
    We have a profound obligation to our volunteers to do 
everything possible, not only to improve their safety and to 
prevent these crimes from occurring but to respond effectively 
in emergency situations. There is no excuse for failing to 
treat survivors with dignity and compassion or for leaving 
families in the dark.
    Our job today is to identify the gaps and flaws in the 
current system, and lay the groundwork for fixing them in a 
reasonable bipartisan manner. The brave and selfless men and 
women who chose to spend more than 2 years of their lives as 
volunteers, often in some of the most remote places on Earth, 
deserve nothing less.
    Indeed, the volunteers are and always will be the Peace 
Corps' most precious asset. Is the agency doing all it can to 
protect them? Is it minimizing risks the volunteers face in the 
field? Is it providing the kind of training, preparation, and 
support they need for emergency situations? Is it using the 
best protocols to respond to sexual assault and protect 
survivors? When the worst happens, are they treating the 
families with compassion and respect?
    To help answer some of these questions, we are honored to 
have with us today the mother of Kate Puzey, the volunteer 
murdered in Benin, and several former volunteers that were the 
victims of sexual assault. We know it takes enormous courage 
for you to tell your stories in this very public setting, as I 
mentioned.
    We all share the goal of making the Peace Corps of the next 
50 years even better than the Peace Corps of the last 50. It is 
now our duty to ensure that this agency lives up to the 
idealism, innovation, and generosity embodied in the 
volunteers.
    Finally, let me just say that it takes a certain kind of 
person to join the Peace Corps, a certain pioneering spirit, to 
leave behind all the comforts they have known for their entire 
lives and enter the unknown to serve others. These individuals 
live with those who are less fortunate than themselves. They 
see the poverty that grips billions around the world and join 
them in their struggle to make a small business work, make 
their crop yields better, gain access to clean water, combat 
deadly and debilitating disease. For this service, it is not 
only the United States but the world that owes Peace Corps 
volunteers a debt of gratitude.
    I hope we can learn today about how to improve the Peace 
Corps and work together in the bipartisan manner that has 
always marked our approach to the agency. We must do this to 
honor the courage of the people who are speaking out on these 
issues, to acknowledge the others who have yet to come forward 
and to respect the legacy of an agency that has done so much 
good in the world.
    Thank you, Madam Chairman. I look forward to the witnesses' 
testimony.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Berman.
    The members are recognized for 1 minute for opening 
statements if they choose to. Congressman Gallegly of 
California?
    Mr. Gallegly. In the interest of time so we can get to our 
witnesses, I would yield.
    Chairman Ros-Lehtinen. Thank you.
    Congressman Sires of New Jersey?
    Mr. Sires. Thank you, Madam Chair, Ranking Member Berman, 
for holding this, today's hearing.
    Earlier this year the Peace Corps celebrated its 50th 
anniversary. We have had over 200,000 volunteers serving in 
over 139 countries. I am incredibly proud for the volunteers' 
service and the lasting contribution you are making to improve 
the lives of people in communities where you are serving. 
Because of my strong support for the work of the Peace Corps, I 
am very concerned about the history of safety and security that 
threatens the Peace Corps volunteers all over the world.
    I am looking forward to hearing from Director Williams and 
Inspector Buller about the progress made by Peace Corps 
regarding volunteer safety. And I would like to thank former 
Peace Corps volunteers for being here today to share the 
stories with us.
    And I also am interested in knowing what the process is 
when a volunteer is in danger. How do you remove that volunteer 
from a dangerous place? I am very curious how you determine 
that.
    And I yield back.
    Chairman Ros-Lehtinen. Thank you very much.
    Judge Poe of Texas?
    Mr. Poe. Thank you, Madam Speaker.
    Peace Corps, those American angels abroad, the best we have 
in this country. They represent everything that is good and 
right about this nation. And you are sitting right here on the 
front row. Thank you for your service and your courage.
    And when you go abroad, a Peace Corps volunteer goes 
abroad, and a crime is committed against them, this nation 
needs to be very proactive in making sure that you are taken 
care of. Too often in the affidavits that I have read, the 
Peace Corps volunteer when assaulted becomes the accused. Peace 
Corps has blamed you for the crimes committed against you.
    As a former judge, let me just say this. Sexual assault is 
never, never the fault of the victim. And our system, our 
country must totally support victims abroad, take care of them, 
bring them back, give them justice because justice is what we 
do in this country.
    Thank you for being here.
    Chairman Ros-Lehtinen. Just the way it is. Thank you, 
Judge.
    Mr. Cicilline, Rhode Island?
    Mr. Cicilline. Thank you, Madam Chairman. And I thank you 
for holding this hearing and thank our ranking member. I 
welcome the witnesses.
    And I want to apologize in advance. I am not able to stay 
for the entire hearing. But I want to assure you that I have 
read all of the written testimony and will follow up with you. 
But I really want to thank you for being here to share these 
stories. I think we all recognize the Peace Corps has done 
extraordinary things, as Mr. Berman described. But this is a 
serious issue.
    I am proud that in my district, we have Brown University, 
which ranks right near the top in terms of providing volunteers 
to the Peace Corps. We have a responsibility to ensure that 
every single person who makes the sacrifice to serve in the 
Peace Corps, that we do everything we can, everything humanly 
possible to assure their safety.
    And the testimony that you provided in your written 
testimony is very disturbing to me and I think to all members 
of this committee. And I thank you for being here to share your 
stories and thank you for your service to our country.
    Chairman Ros-Lehtinen. Thank you, sir.
    Ms. Schmidt of Ohio?
    Ms. Schmidt. Thank you. And, first off, I want to thank 
these brave women that are here before us, Ms. Smochek, Ms. 
Clark, and Ms. Koenen, and, most importantly, Mrs. Puzey, for 
what you have given in order to allow peace to go abroad. You 
know, 60 percent of the folks that are in the Peace Corps are 
women. And you are truly angels and ambassadors.
    And your three-pronged mission of a better understanding of 
Americans to help people understand the folks in America and 
abroad, that is commendable. But when you go over there, you 
are supposed to go over there knowing you are going to be safe, 
and that if something is to happen to you, that you are going 
to be taken care of. And I think that is the big blemish in 
this whole debate.
    I live close to Dayton. I read that article many years ago 
and couldn't believe that it was happening. And now that I 
serve in Congress, I have the ability to do something about it. 
With your help, we will.
    Thank you.
    Chairman Ros-Lehtinen. Thank you, Jean.
    Ms. Wilson of Florida?
    Ms. Wilson. Thank you, Madam Chair and Ranking Member 
Berman, for holding this hearing.
    Founded 50 years ago, in 1961, by John F. Kennedy, the 
Peace Corps has sought to meet its legislative mandate of 
promoting world peace and friendship by sending American 
volunteers to serve at the grass roots level in villages and 
towns and corners of the globe. Living and working with 
ordinary people, volunteers have contributed in a variety of 
capacities, such as teachers, environmental specialists, health 
promoters, and small business advisers, to improving the lives 
of those they serve and helping others understand American 
culture.
    To date nearly 200,000 Peace Corps volunteers have served 
in 139 countries. About 8,655 volunteers currently serve in 77 
nations. In September 2005, Peace Corps response volunteers 
were deployed to assist Hurricane Katrina relief, the first 
time in Peace Corps history that volunteers were used 
domestically. More recently, they are serving in Haiti. And 
thank you.
    While these volunteers serve our nation and our interests 
today, we will hear terrible stories of sexual assault and 
abuse to Peace Corps volunteers. It is important that we learn 
and know what changes the Peace Corps has done in the wake of 
these charges. Is a sexual assault protocol developed by the 
Peace Corps sufficient? And what can we do to keep our 
volunteers safe?
    I look forward to the witness testimony. And thank you.
    Chairman Ros-Lehtinen. Thank you, Ms. Wilson.
    Mr. Marino of Pennsylvania?
    Mr. Marino. Thank you, Madam Chair.
    As a former state and Federal prosecutor, I want to know 
why these good people were treated like they were and why these 
crimes weren't prosecuted and taken to the fullest extent.
    I yield my time.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Higgins of New York?
    Mr. Higgins. I thank the chair and just to thank the 
witnesses for being here. And the Peace Corps has done 
extraordinary work throughout the world for the past 50 years. 
We have an obligation, morally and otherwise, to ensure their 
safety. It is not what America does or says throughout the 
world. It is what America does. And the Peace Corps for 50 
years has been the embodiment to the great, generous spirit of 
the American idea.
    So I look forward to the hearing. And I yield back my time.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Kelly of Pennsylvania?
    Mr. Kelly. Thank you, Madam Chair.
    And, to the witnesses, I want to thank you so much for 
coming forward and having the fortitude to do it. It has got to 
be very difficult. As a father and a grandfather, I can tell 
you after reading your testimony I cannot believe that we put 
you in such danger and treated you so poorly. So I will tell 
you that I will dedicate my time--I have only been here 3 
months--to following up on this and making sure that at any 
time this ever happens again, we follow through the way we need 
to follow through and keep our promise to you the way you kept 
your promise to our country.
    I yield back my time. I look forward to your testimony.
    Chairman Ros-Lehtinen. Very good. Thank you.
    Mr. Connolly of Virginia?
    Mr. Connolly. Thank you, Madam Chairman.
    And, again, I want to express my welcome and appreciation 
for the courage of the women who have joined this panel today. 
Their stories are compelling and need to be addressed.
    I also think, as the ranking member indicated, that this is 
the 50th anniversary of the Peace Corps. And, as Judge Poe 
said, Peace Corps makes us proud as Americans. Its presence 
overseas has been a marvelous testament about democracy, not in 
the abstract but in the faces of the men and women who have 
served, 200,000, as Mr. Sires said.
    Sadly, we can't protect all of those volunteers, but the 
goal ought to be to do just that, to bring the risk factor to 
zero. We will never quite get to zero, but we need to explore 
today what we can do to ensure that this never happens to 
another volunteer and that, God forbid, when it does, the full 
brunt of U.S. resources on behalf of justice and bringing to 
justice the perpetrators of the crime are at work. So making 
Peace Corps even better ought to be the subject of this hearing 
and not cloud the 50 proud years of an organization that has 
done so well to the United States.
    And I thank the chair.
    Chairman Ros-Lehtinen. Thank you, sir.
    Dana Rohrabacher of California?
    Mr. Rohrabacher. One of the frustrating aspects of my job 
is that I have two hearings at exactly the same time that are 
both really important. I will be coming back and forth, but I 
will be reading your full testimony. I want to thank you for 
coming forward.
    And I think it is a sad commentary that women who went 
overseas to serve our country and to serve others found out 
when their most important time of need happened, that we 
weren't there. Their government was not there to serve them 
when they needed it the most. So I thank you for coming 
forward. You are going to permit us to perhaps correct a bad 
situation. That is what this is all about. And thank you for 
coming forward with your testimony.
    And thank you, Madam Chair, for calling the hearing.
    Chairman Ros-Lehtinen. Thank you, sir.
    Ms. Bass of California?
    Ms. Bass. Yes, Thank you, Madam Chair.
    I would first like to commend the strength of the women 
before us for your courage to come forward and advocate on such 
a delicate and important issue. I appreciate you coming to 
Washington this week to speak to Members of Congress and our 
staff and for testifying during this public hearing.
    I know that you have all endured great hardships from these 
experiences and should be commended for your bravery and 
perseverance in ensuring that future generations of Peace Corps 
volunteers don't have to go through what you did. You inspire 
all of us with your actions and commitment to the Peace Corps, 
the vision of service and world diplomacy. We are grateful for 
your service during your time in this program and thereafter.
    And I look forward to trying to understand what we can do 
to make sure the situation does not continue. Thank you.
    Chairman Ros-Lehtinen. Thank you, ma'am.
    As I had pointed out in my opening remarks, Senator Isakson 
of Georgia is the senator who represents the Puzey family and 
would like to--we would be honored to give you a minute, 
Senator, to talk about Kate's case and anything you can help us 
with. Thank you for going back there next week and trying to 
see justice come.
    Mr. Isakson. Madam Chairman and Congressman Berman, thank 
you very much for holding this hearing. I did not know Kate 
Puzey in life, but I attended her funeral service and met her 
coworkers and her family and heard about her extraordinary 
service to America and the pride she brought to my State of 
Georgia. And I made a commitment that I would do everything I 
could to see to it that Lois Puzey and her family first found 
closure and, second, the dissatisfaction that they had made an 
effort to see to it that what happened to Kate never happened 
to anybody again.
    I am personally very grateful to each and every one of you 
for being here. I know the demands all of us have on our time. 
This is one of the most important things we can for the 
Americans and for the continuing integrity of the Peace Corps.
    I am very honored you gave me a chance to speak. Thank you, 
Madam Chair.
    Chairman Ros-Lehtinen. Thank you, very much, Senator. Thank 
you.
    And now I would like to welcome the witnesses for our first 
panel. Our first witness, Lois Puzey, is the mother of 
Catherine Irene Puzey, or Kate, who was murdered in Benin on 
March 12, 2009, while serving in the Peace Corps. Mrs. Puzey is 
here to serve as Kate's voice, and to help prevent other 
families from experiencing tragedies like hers.
    Mrs. Puzey married her husband in 1976 and had 2 children: 
David and Kate. Mrs. Puzey retired in 2006 from the Department 
of Defense school system after teaching military dependents for 
30 years at both Augsburg High School in Germany, and Kadena 
Middle School in Okinawa, Japan.
    I would like to express on behalf of our committee our 
sincerest condolences to you and your family, Mrs. Puzey. And 
thank you for appearing before us today.
    Next we will hear from Carol Clark. Ms. Clark served as a 
Peace Corps volunteer in Nepal from 1984 until '85. She is 
currently an elementary school teacher in Jones County, North 
Carolina. She received her master's degree in counseling and a 
bachelor's degree in biology from Wake Forest University. She 
has served her community in many ways, including as a child 
enforcement agent and a community college counselor.
    Ms. Clark, I would like to thank you for your bravery in 
sharing your experiences, we greatly appreciate your testimony 
this morning.
    Also appearing before the committee today is Jessica 
Smochek, who was a Peace Corps volunteer in Bangladesh in 2004. 
She is a board member of First Response Action, a non-profit 
organization that seeks change in the Peace Corps' sexual 
assault policies, and that provides assistance for former Peace 
Corps volunteers who have been victims of traumatic crime.
    Ms. Smochek, thank you also for the courage to come before 
our committee today.
    Next we will hear from Karestan Chase Koenen. Dr. Koenen 
was a Peace Corps volunteer from '91 to '93. She is a licensed 
clinical psychologist and she studies the interplay of genetic 
and environmental factors in the production of stress-related 
mental disorders, such as posttraumatic stress disorder, 
generalized anxiety disorder, and depression.
    Dr. Koenen, we are honored to have you here today.
    Finally, we welcome, Ms. Jennifer Marsh. Ms. Marsh 
currently works for the Rape, Abuse and Incest National 
Network, RAINN, the nation's largest anti-sexual assault 
organization. RAINN manages the National Sexual Assault Online 
Hotline and coordinates services and communications with over 
1,000 affiliate sexual assault service providers for the 
National Sexual Assault Telephone Hotline.
    Thank you for taking the time to appear before us today, 
Ms. Marsh.
    All of your statements have been made a part of the record 
and we ask that you summarize your statements to 5 minutes.
    Mrs. Puzey, we will begin with you. Thank you. And if you 
could put your microphone close to your mouth, that helps us to 
hear you. Thank you.

    STATEMENT OF MS. LOIS PUZEY, PARENT OF LATE PEACE CORPS 
                           VOLUNTEER

    Mrs. Puzey. Chairman Ros-Lehtinen, Ranking Member Berman, 
and committee members, my name is Lois Puzey. And I am here 
today on behalf of my daughter Kate Puzey, who was murdered 
March 12, 2009 while serving with the Peace Corps in the West 
African Nation of Benin, and to urge Congress to enact 
legislation so that other families won't have to endure a 
similar tragedy.
    Kate was a deeply compassionate, talented, upbeat person 
with a gift for understanding others. She was twice elected 
student council president in high school and graduated at the 
top of her class. After college, she joined the Peace Corps, 
serving as a teacher in a rural village.
    Kate loved her time in Benin. She built close ties to her 
village. And she was considered a model volunteer. So how did a 
competent model volunteer become the victim of murder?
    From the beginning, Kate was warned about the man who is 
now accused of killing her, Constant Bio, a local who taught in 
Kate's school. And he also worked part-time for the Peace 
Corps. Kate was told that Mr. Bio pressured students for sex 
and had bothered children with them.
    Over time, her concern escalated. And then in February 
2009, students and fellow teachers told Kate that Mr. Bio had 
actually raped two of his students and begged her to help. 
Despite the potential danger, Kate tried to do the right thing. 
Since her village had no Internet service and she was 12 hours 
away from the Benin country office, she traveled to the nearest 
work station, where she e-mailed the Peace Corps country 
director, asking for her assistance. Kate particularly 
emphasized the need for confidentiality because she understood 
that the brother of Mr. Bio worked in that same country office 
as the Peace Corps director.
    Tragically, the way that Kate's e-mail was handled 
ultimately led to her death. The country director fired the 
accused without talking to Kate or without taking any kind of 
precautions or doing any kind of investigation on her own. She 
didn't take any precautions to remove Kate from her village. 
And, even worse, the Inspector General's report indicates that 
Kate's confidentiality was broken, apparently resulting in Mr. 
Bio's brother telling him about Kate's e-mail.
    Kate was never alerted to the danger. Within a few days, 
she was murdered, it is believed by Mr. Bio and another man, 
both of whom were arrested along with Mr. Bio's brother.
    Kate was the heart of our family. And our lives have been 
shattered.
    The Peace Corps was very supportive during the funeral and 
made great efforts to honor her. That being said, we were 
shocked by many of our experiences with them after Kate's 
death. The Peace Corps provided us with very little 
information. They refused to answer our questions about the 
Inspector General's investigation and stopped all communication 
with us after 4 months, leaving us by ourselves to piece 
together what happened to our daughter.
    Then 6 months after she died, her belongings arrived 
unaccompanied, simply left in our driveway in a FedEx delivery.
    Finally, we discovered that before Kate's death, the Peace 
Corps had no whistleblower protections or training procedures 
in place. These were first drafted 2 weeks after she died.
    Feeling abandoned, in 2010, we created our own advocacy 
group and have since had very improved relationships with the 
Peace Corps, thanks to the leadership of Director Williams. 
However, the Peace Corps has never acknowledged the critical 
role it played in Kate's death. And we are also very painfully 
aware that if ABC's 20/20 had not investigated her murder, we 
would not have heard from them.
    Our family deserves an honest acknowledgement and formal 
apology from the Peace Corps for any actions that contributed 
to our daughter's death.
    After our experiences and hearing many other stories, we 
also believed that whistleblower and victims' rights 
legislation are urgently needed. In the past, the Peace Corps 
has believed, as I believe the present administration believes, 
that they have solved the problems, but, in truth, because of 
the transient nature of the leadership, efforts have eroded 
time after time. We do not want another family to endure the 
nightmare that we live daily, made worse by the recent news 
that those responsible for Kate's murder could go free. 
Legislation is the only way to ensure reforms remain consistent 
over time.
    We still support the Peace Corps and understand the 
instinct to protect it, but by not acknowledging and addressing 
its systemic weaknesses, that doesn't help. That doesn't help 
the Peace Corps, nor its volunteers. Instead, please build a 
stronger, safer Peace Corps by passing legislation.
    In the future, there will be another volunteer like my 
Kate, who will want to do the right thing. Honor Kate's 
sacrifice by doing the right thing now so that future 
volunteers can serve safely.
    [The prepared statement of Mrs. Puzey follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you very much. And we will do 
so. Thank you.
    Ms. Clark?

   STATEMENT OF MS. CAROL CLARK, FORMER PEACE CORPS VOLUNTEER

    Ms. Clark. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. If you could push that middle button 
there and then hold it really closely to your mouth?
    Ms. Clark. Thank you, Chairman Ros-Lehtinen, Ranking Member 
Berman, committee members.
    My name is Carol Clark. I am a school teacher, a former 
Peace Corps volunteer, and a rape survivor. I thought I was 
alone in my experience, but when I learned that women today are 
still living through what I thought had been remedied decades 
ago, I knew I had to come forward.
    In August 1984, 3 months after I graduated from college, I 
flew to Nepal ready to begin my lifelong dream of becoming a 
Peace Corps volunteer. The Peace Corps staff never talked to us 
about protecting ourselves from sexual harassment or assault. I 
never expected that it was the Peace Corps' own staff members 
from whom I would need the most protection.
    Shortly after I arrived, our supervisor, the Nepalese Peace 
Corps program director, told female volunteers he expected sex 
in exchange for providing us with our living supplement checks. 
We told our Peace Corps country director about this, but he did 
nothing. He told us to grow a thicker skin and allowed the 
program director to continue supervising us.
    Three months later, the program director raped me. 
Devastated and humiliated, I reported the rape to the Peace 
Corps medical officer. Instead of helping me, he told me he was 
disgusted with the volunteers and anything that happened to us 
was our own fault. I was not offered counseling.
    The Peace Corps allowed my program director to continue 
supervising volunteers. And before the Peace Corps would assign 
me to a supervisor other than my rapist, I was forced to 
confront him in front of the Peace Corps medical director, who 
had chided me. Being forced to see this man again, to speak to 
him, and to convince the Peace Corps he had raped me was 
extremely traumatic, but I did it.
    The Peace Corps took no action against my assailant, even 
after the forced confrontation. In fact, soon after I returned 
to service, he arrived unannounced at my village. It was clear 
he told his friends in the village they could violate me 
without fearing repercussions from the Peace Corps. He was 
right.
    Soon after he left, a Nepalese official with whom I had 
worked told me my Peace Corps friend had told him how I like to 
have fun and demanded sex. When I refused, he picked up a 
knife, grabbed my neck, and choked me. He forced me to put a 
used, torn condom on him and began raping me. For the next 15 
hours, he raped and beat me. For a long time, I prayed to live. 
And after that, I prayed to die.
    When I finally escaped, I took my bike and rode, ran, and 
waded my way to Janakpur. From there I flew to Kathmandu, where 
I reported the rape. The medical officer was angry with me for 
putting myself in a dangerous situation. He did not document 
the crime. And my attacker was not brought to justice.
    The Peace Corps flew me back to Washington, DC, instructing 
me to tell others I was leaving because of dysentery. The 
program director who had initially raped me was given my home 
address and assigned to collect and mail me my belongings.
    After I left, so many Nepal volunteers had been sexually 
assaulted or sexually harassed that they created their own 
safety survey. It showed numerous volunteers had been verbally 
and physically harassed and three more had been raped. They and 
I sought change from the Peace Corps.
    My former Peace Corps regional director told me our stories 
had made a difference, the Peace Corps was creating new 
training materials and future volunteers would be safer, better 
prepared, and better treated. I believe the Peace Corps wanted 
to change then, as it does now, and that some improvements have 
been made, but the women sitting next to me prove those 
improvements were lacking.
    In the last 20 years, according to Peace Corps' own data, 
Peace Corps volunteers reported more than 1,600 incidents of 
sexual assault, over 1,000 of which occurred in the last 
decade. Sadly, the three most recent years for which Peace 
Corps has released statistics have seen the greatest number of 
assaults.
    Director Williams is a good man, but the Peace Corps has 
had almost 30 years since I was a volunteer to fix things on 
its own. And it has fallen short. The women trusting their 
lives to the Peace Corps cannot wait decades more for Peace 
Corps policies to organically mature. They need the immediate, 
permanent, and meaningful change that comes through legislative 
accountability. For that, we look to you.
    Please help us build a better, stronger, safer Peace Corps 
so that our daughters can help the Peace Corps build a better 
world.
    [The prepared statement of Ms. Clark follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you very much.
    Ms. Smochek?

 STATEMENT OF MS. JESSICA SMOCHEK, FORMER PEACE CORPS VOLUNTEER

    Ms. Smochek. Chairman Ros-Lehtinen?
    Chairman Ros-Lehtinen. Hold it closer to you. Thank you.
    Ms. Smochek. Chairman Ros-Lehtinen, Ranking Member Berman, 
committee members, my name is Jessica Smochek. I am a former 
Peace Corps volunteer and a Peace Corps rape survivor.
    Thank you, Congressman Poe, Congresswoman Tsongas, and all 
of you who have been working hard to make the Peace Corps 
better, stronger, and safer for volunteers.
    In 2004, I was 23 years old. Fresh out of college, I joined 
the Peace Corps, an organization I admired for its noble 
ideals, and set off for Bangladesh. The Peace Corps said we 
might experience harassment during our posting but that it just 
took some getting used to. This statement did not prepare us 
for the realities we would soon face.
    Shortly after I arrived, for example, a group of six local 
men began following me home. Eventually they surrounded me, 
grabbed me, knocked me to the ground, and began touching and 
kissing me. I was terrified and helpless. Eventually they 
simply left.
    When I reported this, the Peace Corps staff told me those 
types of things just happened. Over time, the harassment only 
increased. My site mates and I reported this to the Peace Corps 
staff as well, but most of our reports went unanswered.
    A male volunteer offered to teach us self-defense, but the 
Peace Corps rejected this offer. We asked for pepper spray or 
mace, but the requests were denied. We begged to be moved to a 
safer site. Again the Peace Corps refused.
    Soon the very act of reporting incidents to the Peace Corps 
was very dangerous. Locals who learned of the reports became 
furious. They told me and my site mates it would hurt me if I 
didn't keep quiet. We reported these threats, too, although 
with each report, the men grew angrier. And the Peace Corps did 
nothing.
    Then on December 6, 2004, shortly after 5 o'clock p.m., the 
men dragged me into an abandoned courtyard. And the violence 
began. They started by raping me. And they forced other objects 
inside of my body. And when they were done violating me with 
their bodies and their objects, they intensified their physical 
assault. They yelled insults and threatened to kill me. I began 
to think it would never end. And so I begged them for the death 
they promised. They just laughed. And after what seemed like a 
lifetime, my ordeal was over or so I thought.
    I went to the capital to report the rape, but the Peace 
Corps medical officer did not examine me, perform a rape kit, 
or collect any evidence. Instead, she took away my cell phone. 
This, unfortunately, prevented me from warning other volunteers 
and my site mates about what had happened. In fact, she told me 
that if I did talk to other volunteers, that I should tell them 
that I was going to Washington to have my wisdom teeth taken 
out.
    Before leaving Bangladesh, I was forced to go back alone to 
my village, where my rapists remained, to gather my belongings 
and spend the night there one last time. Then, still reeling 
from the trauma, I was put on a plane alone back to Washington, 
DC.
    The Peace Corps didn't send me home or give me the option. 
And so I stayed in Washington, DC, for the next 45 days. When I 
arrived in DC late at night, no one was there to meet me at the 
airport. I was forced to find my way through this large, 
unfamiliar city on my own.
    The Peace Corps first sent me to a male gynecologist. He 
was insensitive, and it was excruciating. The Peace Corps also 
required me to meet with a counselor, who made me write down 
everything I had done wrong for this to occur. As examples, she 
suggested that I had been out after 5 o'clock p.m., I hadn't 
screamed, and that I didn't fight back. Rather than feeling 
safe and supported, I felt belittled and blamed.
    After 1\1/2\ months in DC, I was medically separated from 
the Peace Corps and shunted onto Worker's Compensation. There I 
have been repeatedly forced to describe my injury on forms and 
to strangers to get the support I need to recover. It can take 
months or years to receive reimbursement. This must be changed 
so that survivors do not have to go from agency to agency 
fighting for help they need to recover.
    I wish what had happened to me had made a difference for 
the other volunteers in Bangladesh, but shortly after I left, 
the country director without my permission told the female 
volunteers I was raped, that it was my fault, and rape was 
always a woman's fault.
    Years later, I learned at least three other women in my 
volunteer group were sexually assaulted and probably because of 
what the country director had said that day did not report it. 
The Peace Corps must change. Women must be better protected 
from rape and from the callous treatment that too often follows 
them.
    Maya Angelou said, ``History, despite its wrenching pain, 
cannot be unlived but if faced with courage need not be lived 
again'' I am hopeful that today's hearing will precipitate the 
much needed change in Peace Corps' sexual assault policies and 
that my nightmare need not be lived again.
    Thank you again for the opportunity to testify today and 
for bringing these very important issues to light.
    [The prepared statement of Ms. Smochek follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you very much for your 
testimony.
    Dr. Koenen?

 STATEMENT OF KARESTAN CHASE KOENEN, PH.D., FORMER PEACE CORPS 
                           VOLUNTEER

    Dr. Koenen. Chairman Ros-Lehtinen, Ranking Member Berman, 
committee members, my name is Dr. Karestan Koenen. I am an 
Associate Professor at Columbia University and an Adjunct 
Professor----
    Chairman Ros-Lehtinen. Could you put the microphone just a 
little bit closer to your mouth so we can hear you better?
    Dr. Koenen. Sorry. Yes. I am an Associate Professor at 
Columbia University and an Adjunct Professor at Harvard 
University. I teach about psychological trauma. My 
understanding of and my passion for the topic are the result 
both of my education and, unfortunately, my own experience with 
the Peace Corps.
    I joined the Peace Corps in 1991. It was clear from the 
beginning that my country, Niger, was dangerous. Also clear was 
the Peace Corps staff inadequacy in dealing with the effects of 
danger on volunteers. For example, 1 week during our in-country 
training period, several men broke into our site, assaulted two 
male volunteers and raped a female volunteer.
    I recall telling my site director that I felt unsafe, but I 
was told that I was making too much of what had happened. The 
Peace Corps staff then instructed us not to tell our families 
about the attacks.
    The staff's instructions to calm down and keep quiet were 
the only training we received on how to respond to an assault. 
Despite the fact that serious crimes had occurred on the 
training compound, we did not receive any training on how to 
minimize the risk of assaults or how to report them should they 
occur.
    On December 27, 1991, I was forced to learn by experience 
about the dangers of sexual assault. A Nigerian man held me 
down, ripped off my shorts and underwear, and raped me.
    The doctor who worked for the Peace Corps was kind but 
neither trained nor equipped to perform a forensic rape exam. 
No one gave me the opportunity to make a formal statement or to 
speak with law enforcement. And although the doctor reported 
the rape to the Peace Corps' country director, he did not visit 
me, he did not call me. I was soon put on an international 
flight to Washington, DC, alone.
    Upon arriving at Peace Corps headquarters, I was greeted 
with a cold reception. I was first sent to a male gynecologist. 
I recall finding the pelvic exam incredibly painful and him 
telling me to stop being hysterical and to just calm down.
    I was then sent to speak with a Peace Corps staff 
investigator, who said, ``I am so sick of you girls going over 
there, drinking, dancing, and flirting. And then if a guy comes 
on to you, you say you have been raped.''
    My final straw was when my Peace Corps country director 
said to me when I wanted to prosecute, ``It is your word 
against his. He said you wanted to have sex, and we believe 
him.''
    As an expert in the field of psychological trauma, I know 
how dangerous an inadequate response to the rape victim can be. 
Fear of being disbelieved or blamed, as I was by the Peace 
Corps, is exactly why so many survivors do not report their 
rapes.
    The Peace Corps' own data suggests two times more assaults 
occur in the Peace Corps than those that are reported. In 
addition, over a decade of research has demonstrated that the 
social support a survivor receives in the aftermath of a trauma 
highly influences the risk that the victim will develop post-
traumatic stress disorder. A negative social response leaves a 
survivor in a quagmire of self-blame for the rest of her life.
    I have examined the current sexual assault protocols and 
policies of the Peace Corps. And though they have evolved since 
my time of service, they remain dangerously inadequate.
    Several other experts have reviewed the Peace Corps' 2011 
sexual assault guidelines, as I did, and have written letters 
to the committee expressing their concerns with the policies 
and their recommendation for change. I am including these 
letters for the record as part of my testimony.
    Chairman Ros-Lehtinen. Without objection.
    [Note: The letters offered by Dr. Koenen are not reprinted 
here but are available in committee records.]
    Dr. Koenen. The affidavits and letters from other experts 
make it clear that it is time for a systemic, permanent 
solution that addresses better training for volunteers, 
training for in-country staff, and appropriate vetting and 
accountability for staff in the United States.
    Of these needed reforms, there are eight things the Peace 
Corps could do right away to dramatically increase and improve 
the care provided to its volunteers. They are, one, discontinue 
the use of Peace Corps' current sexual assault training video 
called ``Serving Safely'' that shows survivors apologizing for 
endangering themselves and causing their rapes.
    Two, put victims' advocates in every region. I am pleased 
that the Peace Corps has hired a victims' advocate in DC, but 
caring for the in-country and post-service needs of what are at 
least 100 sexual assault a year is too great a burden for one 
person to carry.
    Three, provide travel companions for rape and sexual 
assault survivors returning home to the U.S.
    Four, eliminate the harmful and minimizing distinction used 
in the Peace Corps' own materials to distinguish major sexual 
assault from minor sexual assaults.
    Five, set up a task force with the Department of Labor to 
determine how to help survivors get adequate and timely 
benefits without being forced to reexperience their traumas.
    Six, enlist the help of outside experts with authority to 
ensure Peace Corps policies continually reflect best practices.
    Seven, <greek-l>five deg.provide survivors the choice of 
treatment providers.
    And, eight, fire the staff and treatment providers who 
blame victims and harm them.
    I believe Director Williams to be well-intentioned, but we 
simply cannot ignore history. The Peace Corps has promised time 
and time and time again to fix these problems, and it has not. 
We need Congress.
    Thank you for the opportunity to speak to you about my 
experience and my hope for a better, stronger, safer Peace 
Corps.
    [The prepared statement of Dr. Koenen follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you for those recommendations. 
Very useful.
    Ms. Marsh?

 STATEMENT OF MS. JENNIFER WILSON MARSH, HOTLINE AND AFFILIATE 
                    SERVICE DIRECTOR, RAINN

    Ms. Marsh. Good morning, Chairman Ros-Lehtinen, Member 
Berman, and distinguished members of the committee. Thank you 
for inviting me to speak today.
    Before I begin, I would like to take a moment to commend 
the women who have spoken before me for their courage and 
eloquence.
    My name is Jennifer Wilson Marsh, and I am the National 
Sexual Assault Hotline director at the Rape, Abuse and Incest 
National Network, or RAINN, the nation's largest anti-sexual 
assault organization. RAINN is recognized by the Justice 
Department and Congress as a leader in the field of sexual 
assault services and has provided thousands of hours of 
training and technical assistance to sexual assault service 
providers across the country.
    In addition, RAINN has been selected to be a member of the 
Justice Department's National Victim Assistance Standards 
Consortium and has assisted more than 1.5 million people 
affected by sexual violence through the national sexual assault 
hotlines.
    I will begin by outlining several best practices used in 
serving victims of sexual violence. Peace Corps has a long 
history of successfully promoting peace around the world. And 
we believe that if applied correctly, these best practices can 
strengthen the Peace Corps organization and their response to 
victims.
    I will follow this with a description of how RAINN is 
currently working with Peace Corps and conclude with my 
recommendations.
    The following best practices are drawn from Department of 
Justice standards. Accessibility of quality advocacy services 
following an assault is paramount. The value of these services 
is lost if victims do not know of their existence.
    Peace Corps volunteers need to receive through layered and 
repeated trainings information describing services available to 
them in the event they are assaulted. This training should also 
include a comprehensive overview of issues surrounding sexual 
violence and risk reduction strategies. We are familiar with 
the bystander intervention training that Peace Corps is 
currently developing for volunteers and believe that this is an 
effective model for risk reduction.
    All staff members who may be first responders should 
receive a minimum of 40 hours of training and complete annual 
refresher courses. Training should focus on the special needs 
of sexual violence victims and be reinforced by all Peace Corps 
administrative policies and procedures.
    A sexual response team, or SART, model is the most 
effective approach when responding to sexual assault victims. A 
SART is most typically comprised of a victim advocate, law 
enforcement, and a forensic medical examiner. This approach is 
a streamlined response, thereby minimizing victim 
retraumatization. And it creates a singular point of contact, 
allowing the victim to focus on their recovery.
    Without a guarantee of confidentiality, victims may not be 
willing to seek help for fear that their experience will be 
scrutinized. Control over personal information is not only a 
matter of privacy; it is also a matter of personal safety. It 
should be made clear during all trainings how information 
disclosed will be maintained and shared.
    Through the national sexual assault online hotline, we have 
seen the importance of safe and secure help. With confidential 
services, victims can discuss concerns and are more likely to 
report the crime or seek long-term support.
    Finally, there needs to be a clear grievance procedure for 
victims who feel as though they were treated poorly by staff or 
did not receive an adequate response following their assaults.
    On March 23rd, 2011, RAINN and the Peace Corps signed a 
memorandum of understanding, or MOU, to collaborate and share 
educational resources and training tools on sexual assault risk 
reduction and response.
    Since the signing of our MOU with Peace Corps, we have been 
asked to review training content and procedures. While Peace 
Corps is still in the process of updating and improving their 
response to victims of sexual assault, we believe that they are 
moving toward implementing some of these best practices.
    As the Committee on Foreign Affairs is charged with general 
oversight of the Peace Corps, we believe it should do the 
following: Enact legislation that will ensure that Peace Corps 
adopts established best practices in victim response and 
include a mechanism for formalized succession planning, to 
address high staff turnover due to mandated appointment limits.
    We recommend Peace Corps expand on the progress already 
made with the hiring of a victim advocate with the addition of 
mobile victim advocates. These trained staff would be able to 
immediately travel to the location of a volunteer who has been 
assaulted and provide on-the-ground help, completing the SART 
model. The staffers in this position should be experienced in 
navigating foreign, legal, and cultural systems, and victims 
will benefit from having an advocate negotiate the unique 
challenges of being victimized abroad.
    In conclusion, we believe that Peace Corps is making 
positive steps in improving its response to victims of sexual 
assault. The areas of staff and volunteer training, 
accessibility of services, and clear confidentiality policies 
are basic tenants of effective service provision for victims of 
sexual violence.
    There are best practices already in existence in the field 
of victim services that can further assist Peace Corps in 
updating these aspects of their programs. Implementing these 
recommendations will help ensure victims will have access to 
the quality services they need and deserve.
    [The prepared statement of Ms. Marsh follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you very much to all of you 
for your brave testimony. Thank you for appearing before our 
committee today. Your testimony is going to make a big 
difference.
    Mrs. Puzey, I wish to offer you my most sincerest 
condolences on the loss of your brave daughter. Your testimony 
will change the way that business is being done in the Peace 
Corps. You are very brave to come before us. I am sorry you 
only have 5 minutes to describe what a dreadful life-changing 
experience it has been for your family.
    And I know that the criminal case is about to begin in your 
daughter's case. I don't know if that is true, but I don't want 
your testimony to have any negative influence on that. Perhaps 
you could explain to us what you think in detail needs to 
change in the Peace Corps that would prevent such a terrible 
travesty to occur again.
    Mrs. Puzey. Well, as I said in my testimony, I really feel 
like that it is important to have those whistleblower 
protections in place and also training procedures and not just 
training procedures, of course, for the volunteers so they know 
their avenues, they know how to report, but it is also very 
important the staff does know what to do, particularly people 
in positions like the country director, so that they will know 
how to handle a situation when it comes to them. I think that 
is very, very important.
    And then, of course, on the other side, to be sensitive to 
victims' families, I have always said that Peace Corps--you 
know, when everything is going right, the Peace Corps is one of 
our country's best ideas, but, you know, when things go wrong, 
that is where that component, that response component, needs to 
be improved.
    Chairman Ros-Lehtinen. Thank you very much.
    Dr. Koenen, I wanted to ask you about the blaming the 
victim and how that would impact the recovery of victims of 
assault, sexual assault, or any kind of crime committed against 
them. One of the themes in the testimony that we have heard is 
that the Peace Corps was not equipped to handle the complaints, 
did not act on it, the accusations were not taken seriously, 
and, more than anything, it was the blame the victim that was 
at play here.
    Can you tell us how blaming the victim impacts the recovery 
of the victims of sexual assault?
    Dr. Koenen. Yes. Thank you, Chairman. The social support or 
the reaction that a survivor receives in the acute aftermath of 
an assault, so immediately within hours, 24 hours, is the key 
factor in determining whether she or he will have long-term 
mental health consequences or not. And the reason is that in 
that acute period, the victim is incredibly vulnerable. She is 
in fight or flight mode. And she is playing over in her head 
``Why did this happen to me? How did this happen to me?''
    And it is by nature when something terrible happens, we 
question ourselves and we question our behavior. And then when 
you meet a provider, who, rather than ask you questions about 
``How can we keep you safe? What do you need? Here are some 
choices on what you would like to do,'' the blaming the victim 
just adds to that questioning of your own behavior and you end 
up internalizing that blame. And psychologically that can keep 
you from talking to anyone else about it. It can keep you from 
seeking help that you need because you are worried that other 
people are going to respond the same way. And long term it can 
negatively affect your mental health.
    It is a big predictor of post-traumatic stress disorder. In 
fact, blaming the victim after assault increases the risk of 
post-traumatic stress disorder more than the characteristics of 
the assault, more than whether the victim is physically 
injured, more than whether there is penetration or not. It is 
really the key factor in whether the victim will recover or 
not.
    Chairman Ros-Lehtinen. Thank you very much.
    And, lastly, Ms. Smochek, I wanted to allow you to comment 
on the type of safety and security information that was 
included in your handbook and welcome materials. Did you find 
that to be useful?
    Ms. Smochek. In my handbook, there was just a very general 
fact sheet I would say. There was no clear-cut who to call when 
something happens. There were no steps in place. You know, if a 
crime is committed, who do you call? Where do you need to go to 
find it? You know, how do you find a safe place? How is your 
confidentiality going to be kept? None of that was in there. 
You know, buried deep within the packet was a number for I 
believe the OIG's office in Washington, DC.
    So as a survivor, you know, after you have been raped and 
sexually assaulted, to have to go through your handbook to try 
to find a number to call in DC is ludicrous. Many volunteers 
don't have cell phones or cell phone, you know, don't have 
electricity or capability to make that type of phone call. So I 
feel that it was very inadequate.
    Chairman Ros-Lehtinen. Thank you very much. Thank you, 
ladies.
    Mr. Berman?
    Mr. Berman. Thank you, Madam Chairman.
    And I just want you to know that I think your testimony 
today and the other things you have done will work to empower 
other victims and also I think have helped to motivate the 
Peace Corps to make sure that people who will suffer from your 
experience get the assistance that they are entitled to.
    And, Mrs. Puzey, I just want you to know I think the world 
will miss your daughter's hope and sense of community and her 
commitment to public service. We all lose when a young person 
with such energy and promise is taken from us.
    Ms. Marsh, you touched on this in your testimony, but could 
you take a moment just to talk about your evaluation of what 
the Peace Corps is starting to put in place once again and what 
they need to do and particularly focus on this issue of whether 
one person based in Washington with this responsibility is 
enough or do we need--you talked about a notion of roving 
personnel that can go to the site and make sure that the 
country director, the program director, the people involved, 
the medical officer, are operating correctly.
    Ms. Marsh. In terms of the work that we have done with 
Peace Corps so far, I was invited several weeks ago to 
participate in their bystander intervention training, which is 
a model used for risk reduction or prevention of sexual 
assault. And I found that to be a really positive experience.
    In terms of the victim advocate, I do feel like having the 
victim advocate here in DC is a step in the right direction. 
However, as mentioned by the women before me, I feel as though 
having somebody on the ground in person is crucial and somebody 
who doesn't have collateral duty.
    So cross-training a medical officer to also be a victim 
advocate or security officer to be a victim advocate I don't 
feel is adequate. I believe the victim advocate needs to be 
solely responsible for the entire and holistic approach to case 
management and victim services. So if it is having a victim 
advocate here who oversees victim advocates in the field, 
whether they are mobilized when an assault occurs and can 
travel to accompany the victim or if they are based in the 
region, I believe those are different options to explore, but I 
believe that that is imperative to a successful sexual assault 
response.
    Mr. Berman. And then I would like to ask any of the 
witnesses if Congress based on what we have heard today and 
other information about this decides to embark on a legislative 
implementation and mandate for the best practices that Ms. 
Marsh talked about to become the enforced policy of the Peace 
Corps to institutionalize it, as a number of you have 
mentioned, like us, directors come and go and creates an 
institutional basis for these best practices and funds what 
needs to be done here, do you think that that can significantly 
reduce the situations that you found yourselves in or should we 
just end this program?
    Dr. Koenen. I would like to speak to that. I am sure the 
other witnesses would as well. I want to say I love the Peace 
Corps and I support the Peace Corps. And I would be devastated 
if my testimony were used to stop Peace Corps funding, cut 
funding, or eliminate the Peace Corps.
    What we want is a stronger, safer Peace Corps. What we need 
is legislation to cement the changes that RAINN and First 
Response Action have recommended so that when directors come 
and go, when times change, when budget priorities change, that 
crime is prevented and victims are treated adequately so that 
they can have the best chance at recovery.
    And I can speak in my case. If the changes proposed by 
First Response Action and the ones I outlined in my testimony 
were in place, they were legislated when my assault occurred, 
my recovery would have been faster and much better because 
every single thing they recommended would have completely 
changed my experience with Peace Corps DC. Just the 
implementation of regional victims' advocate would have 
transformed all of our experiences.
    And I know that budget priorities are tight right now, but 
the cost of doing nothing is far higher. You see the cost in 
the witnesses for today.
    Mr. Berman. Anyone else in the 15 seconds I have left?
    Ms. Clark. I would like to say that I would be heartbroken 
for my testimony to be used to destroy an institution that I 
absolutely love. I still believe in the ideals of the Peace 
Corps. We as an agency of Peace Corps are there to show the 
rest of the world the best parts of the United States. Peace 
Corps is there to make changes in the world for better, to 
provide education, to provide ways for people to learn to have 
a decent living, income that will promote communities around 
the world to become more economically self-sufficient.
    I do not have the goal of destroying the Peace Corps. My 
goal is to make the Peace Corps better, to help them provide 
better responses. We can't stop all sexual assaults and 
violence from occurring. The key is to provide strong, 
effective best practices when problems do occur.
    Chairman Ros-Lehtinen. Thank you very much.
    Judge Poe?
    Mr. Poe. Thank you, Madam Chair. Thank you once again for 
holding this hearing.
    And I appreciate all of you all for being here today. I 
appreciate your courage. But also, Ms. Clark, I appreciate your 
service in the Peace Corps. I agree with you totally and the 
doc here that the answer is not to get rid of the Peace Corps. 
The answer is to make it better and safer for, as I say, 
America's angels abroad. That is who you all are. And Kate was 
the same way.
    Mrs. Puzey, what is the one thing you want to hear from the 
Peace Corps Director?
    Mrs. Puzey. Well, Director Williams did give us an apology, 
but the apology that we have heard from the Peace Corps has 
been if there was anything that we felt was not compassionate, 
they are very sorry. And I have never doubted the compassion of 
Director Williams or the present staff. But what we really 
would like to hear is an apology and to acknowledge any actions 
on the part of the Peace Corps that were responsible for my 
daughter's death.
    Mr. Poe. I hope you get that apology from the Peace Corps.
    Mrs. Puzey. Thank you. I do, too.
    Mr. Poe. Dr. Koenen, let me ask you something about the 
victims of sexual assault. And I think it is awful that the 
sexual assaults occur. A hundred and twenty-two occurred in the 
Peace Corps that they admit in 2009 overseas. But this is a 
unique crime in my opinion based on my experience on the bench 
in Texas for a long time, because of the way it affects the 
emotional stability or the inner spirit of a crime victim.
    Would you agree or not--and elaborate--on the fact that 
victims, like Peace Corps victims that are sexually assaulted, 
want the Peace Corps and us to give them validation for what 
happened to them; in other words, to support their side, so to 
speak, as opposed to immediately distancing them from us and 
making them at fault, making them feel that it is their fault 
that a crime was committed against them? Is that part of what 
we need to do as a society and the Peace Corps to support the 
validation of what they say?
    Dr. Koenen. Absolutely. Victims of sexual assault, all 
victims of sexual assault in the Peace Corps, need to know from 
their initial contact with someone after the assault that the 
Peace Corps is on their side, that they are not the criminal. I 
think in all of our cases, we have felt like we were the 
criminals. And rape is always the responsibility of the 
perpetrator.
    The Peace Corps needs to change the culture so that victims 
know that the Peace Corps is on their side. And that is crucial 
for, as you know from your work, crucial for the recovery of 
the victim. It is essential. And it is a unique crime in that 
way.
    Mr. Poe. Do you think that the Peace Corps as we see it 
now, based on your all's testimony and things that you are 
aware of, needs really a change in mindset, that the Peace 
Corps needs to have a mindset different about when crime is 
committed against a Peace Corps volunteer somewhere in the 
country, somewhere in the world and, rather than say, ``Oh, 
don't say anything. We might hurt our diplomatic relationship 
with this Third World country,'' and all of these other excuses 
you have heard? Do we need a mindset in the Peace Corps, do you 
think, change in mindset?
    Dr. Koenen. The Peace Corps needs a change in mindset and a 
change in culture from victim blaming to supporting victims. 
And we are all fond of talking about the Peace Corps family. 
And we need to act like a functional family in which if one of 
us is hurt, the family comes to our support, rather than 
treating us like criminals.
    Mr. Poe. Ms. Marsh, a couple of questions. Do you think 
that we can fix this problem and support the Peace Corps 
internally; in other words, change policy in the Peace Corps, 
or do we need legislation?
    Ms. Marsh. I do believe that we need legislation, again, as 
we have mentioned before, because of the appointment turnover. 
We have heard in our meetings with Peace Corps about programs 
or policies that may have been done previously, but it was 
unclear who was responsible for them or the people that were 
responsible for them have since left. So I think that 
legislation is the best way to guarantee that these best 
practices stay permanent, in place, and institutionalized 
through all layers of the Peace Corps.
    And along with that notion is the training, not only of 
first responders, country directors, but anybody in the Peace 
Corps who may come into contact with a victim. And the training 
should be layered throughout the Peace Corps experience, not 
just one singular training on this issue.
    Mr. Poe. Thank you.
    Madam Chair, without objection, I would like to introduce 
three other statements from Peace Corps volunteers that have 
come to my attention, but they want to keep their names 
anonymous. And I would like to submit their stories for the 
record.
    Chairman Ros-Lehtinen. Without objection.
    [The statements offered by Mr. Poe follow:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Thank you, Judge. Without objection.
    Mr. Poe. And I yield back my time. Thank you.
    Chairman Ros-Lehtinen. Ms. Wilson of Florida?
    Ms. Wilson. Thank you, Madam Chair.
    My question is for Ms. Marsh, I guess, who is representing 
the Peace Corps. And I have a map in front of me that sort of 
outlines the places where these rapes have occurred. And rape 
is a horrible crime. It is tantamount to death in my opinion. 
It is just the killing of the spirit, of the soul of women.
    I am just wondering about the local governments. Is there 
any sort of a compact or contract assigned between local 
governments and the officials, especially those that are 
highlighted in red and purple, where most of these rapes have 
occurred?
    And some of them are not that far from the United States. I 
am looking at the Dominican Republic, Haiti, Jamaica. They are 
in red. So if these places are this dangerous, what about the 
local law enforcement and the local elected officials in those 
countries that are responsible for law and order in their 
respective provinces or countries? Is there ever any 
communication with these people pressing charges just as if 
these people were murdered?
    Ms. Marsh. I would just like to clarify before I respond 
that I am not representing Peace Corps. I am representing 
RAINN, the Rape, Abuse and Incest National Network.
    Ms. Wilson. Okay.
    Ms. Marsh. So I am going to defer that question to Director 
Williams and also agree with you that rape and sexual assault 
is a horrible crime. According to the FBI, it ranks only to 
homicide in terms of trauma.
    Dr. Koenen. I would like to defer to Director Williams to 
talk about the specific arrangements in different countries, 
but I think that what Congress can do and where we can make 
effective change is through legislation here that will change 
the Peace Corps' response to rape.
    And, as I mentioned in my testimony, there are three things 
that--I said eight things, but there are three things that can 
be done right now. They can stop the video that they are 
showing, ``Serving Safely,'' that blames victims for their 
assaults. They can end this major and minor distinction of a 
sexual assault that is again victim-blaming. And I would like 
to hear a definition from them of a minor sexual assault. And 
they can provide care and travel companions for survivors.
    And those are immediate things that can be done right now 
while legislation dealing with local law enforcement is very 
important but a long-term more complex process.
    Ms. Wilson. Just a follow-up question. Is there ever any 
contact at all with--you are talking about intervention after 
it has happened. What I am trying to ask a question about is 
prevention. How do we threaten these countries, to say, ``We 
are not sending women to be raped if this doesn't stop?'' I 
mean, ``We will pull all of our Peace Corps volunteers out'' or 
are there any sorts of threats or any level that these 
countries were--and I am talking about the purple and the red.
    If you have this map in front of you. It is unconscionable 
that these many people are being victims and victimized in 
these countries. Is there any warning that this is a dangerous 
place to send Peace Corps volunteers who are women?
    That is what I am asking: Prevention. I understand what you 
mean about intervention and what is happening after these rapes 
occurred, but how do we help prevent some of this? I am at a 
loss.
    Dr. Koenen. In terms of prevention, what we have talked 
about, what RAINN talked about, was bystander intervention 
training with volunteers. Again, the video I have talked about 
pulling is part of their prevention training.
    And I think that the best prevention is that Peace Corps 
can start treating victims of sexual assault with respect and 
set an example for people in these countries of how the U.S. 
expects its volunteers to be treated. If the Peace Corps is 
mistreating its own victims, then how can we demand the people 
in these countries to treat the women any better?
    Chairman Ros-Lehtinen. Thank you very much.
    Ms. Schmidt of Ohio?
    Ms. Schmidt. Thank you. And, first off, the courage of the 
women up here is astounding. And I hope that the Peace Corps 
takes note of it.
    I have never been so incensed and so enraged at an agency. 
My rage began before your testimony when I had a constituent a 
few years ago that just needed to come home 2 days early for 
her sister's wedding. Her father had died. But the 
inflexibility of the Peace Corps disallowed her to come home, 
and she quit the Corps.
    And at that time, I thought to myself, ``They have really 
got to get a grip.'' Well, it is a major grip, not a minor 
grip, because my message is every woman has the right to say 
no, no matter how the act occurs or at what point the act is 
occurring.
    And this isn't just an American right. This is a human 
right. And when you go overseas, you are not just representing 
American rights and values. You are representing human rights 
and values. And it is incumbent upon the Peace Corps to 
understand its own mission. And I applaud you for wanting the 
Peace Corps to continue while you were so violently attacked 
and no one came to your aid.
    Mrs. Koenen, Dr. Koenen, I applaud what you are saying 
about changing this video. It needs to be done today, not 
tomorrow, but today, that there is no difference between major 
and minor assault. An assault is an assault. And when it does 
happen, and you have to go back home, sometimes 12-15 hours 
overseas, you need a companion with you right there. Those are 
easy fixes. And I want to work with you for legislation to put 
the Peace Corps on the right track to protect you.
    And, Mrs. Puzey, before I finish, I just want to ask you, 
what do you want from us here today?
    Mrs. Puzey. Whistleblower protection rights and victim 
rights legislation, both.
    Ms. Schmidt. Whistleblower rights, protection rights, 
victim rights?
    Mrs. Puzey. Yes.
    Ms. Schmidt. I think we can work on that.
    And, Madam Chairman, I yield back my time.
    Chairman Ros-Lehtinen. Thank you so much, Ms. Schmidt.
    Mr. Connolly of Virginia?
    Mr. Connolly. Thank you, Madam Chairman.
    And, again, thank you to all of you for your courage in 
your testimony here today. And, Mrs. Puzey, our hearts go out 
to you and your family. And I hope this hearing gives some 
small comfort that your daughter's memory is not lost and that 
working together, we can try in her memory to make the Peace 
Corps stronger and more compassionate.
    It seems to me that--you know, I have worked with the Peace 
Corps for a long time here on the Hill. And I have traveled to 
many, many Peace Corps missions abroad, met with many 
volunteers. And your stories are, if you will, sort of an under 
side of the Peace Corps that obviously troubles all of us.
    And we can't make everybody 100 percent safe everywhere. It 
is not that kind of world. And, frankly, the work of the Peace 
Corps puts people in much riskier situations. I mean, I have a 
daughter at a university here in America. And, sadly, what you 
described sometimes occurs in U.S. campuses as well. But there 
is counseling. There are training and awareness programs. There 
are prevention programs.
    And I guess what troubles me the most about your testimony 
was that there was, frankly, lacking a standard of compassion 
when somebody signs up as a volunteer and their family supports 
that effort, understanding the risks. And God forbid something 
goes wrong.
    It seems to me that we drop everything as a Peace Corps 
family, as you said, Dr. Koenen, and we respond. We take care 
of the family. We do everything in our power to make sure the 
system of justice in the host country is working on behalf of 
that volunteer and his or her family and that everybody in the 
chain of command, from the medical director to the country 
director to the people back here, is clued in, is genuinely 
compassionate and sensitive and working on your behalf. That is 
the standard we have to reach.
    We can legislate. And it sounds today like we need to. But 
at the end of the day, inculcating that compassion, that 
empathy, that understanding that, as Judge Poe said, you know, 
rape is never the victim's fault--we can never accept that--has 
to be cleared from our minds and the proper perspective adopted 
always and zero tolerance for any variation from that standard.
    I know we are going to hear later from Director Williams 
about reforms and measures he has put in place. And I have 
heard the appreciation of Mrs. Puzey for those efforts. And I 
know that we can and will have to go further.
    But I just want you all to know that on a bipartisan basis, 
we continue to support Peace Corps, as do each and every one of 
you, but we are also going to make sure that, God forbid--well, 
first of all, we are going to do everything we can to try to 
make sure that we are cognizant of risks and dangers. And we 
are going to minimize them, the goal being to try to get to 
zero risk. We know that is an elusive goal, but that ought to 
always be what we are pushing ourselves toward. And then should 
something happen, the full force of compassion and resources of 
the Peace Corps and, indeed, of the United States Government 
are behind you and your families.
    Thank you for your testimony today. And I yield back, Madam 
Chairman.
    Chairman Ros-Lehtinen. Thank you very much.
    Ms. Buerkle?
    Ms. Buerkle. Thank you, Madam Chair.
    And I would like to thank all of our panelists today for 
coming here and for sharing your testimony. As a woman and a 
mother of four children, a grandmother of three granddaughters, 
it is appalling to me. And it breaks my heart to hear what you 
have gone through. And, Mrs. Puzey, my deepest condolences on 
the loss of your daughter as well.
    I would like to join in with my colleagues here. And it 
will be a bipartisan effort to get the legislation in place to 
do what we need to do to make our volunteers safe and to change 
what is happening within the Peace Corps.
    I have spent over 14 years with pro bono advocacy in 
domestic violence. So I have a keen awareness that, as my 
colleague just stated, rape is never the victim's fault. And it 
cannot be that mentality. And that mindset must never be 
accepted. So I will work hard with my colleagues to get this 
legislation passed.
    I would like to ask, Dr. Koenen, with regards to healing 
and recovery, is that possible? And what can we do to help the 
victims who are suffering?
    Dr. Koenen. Healing is absolutely possible, as is recovery. 
I think you can see that from the women, the testimonies of the 
people here who were able to be here and to testify as part of 
our recovery.
    In terms of what we can do, putting the things in place to 
support a victim's recovery starts before an assault even 
occurs. That is why we keep reiterating stop victim blaming; 
training materials; change the mentality of the Peace Corps to 
one that supports victims from one that blames victims and this 
distinction between major and minor sexual assault, again which 
is victim blaming; set in protocols into place in terms of 
confidentiality so people know their confidentiality will be 
respected and that we have control over who our stories are 
told to; provide a support person to travel back to the 
country; provide adequate support once the victim is back in 
the country; the victims' advocate to coordinate services 
across all of these complex systems. So all of those things can 
aid in recovery. The initial response of Peace Corps staff is 
key in that.
    One of the things I want to assure anyone, not just Peace 
Corps volunteers, who have experienced a sexual assault is that 
recovery is 100 percent possible.
    Ms. Buerkle. I just want to comment that I understand your 
commitment to the Peace Corps. And I understand your desire not 
to see the Peace Corps disrupted. But, as my colleague Jean 
Schmidt said, this has to stop. And this legislation and our 
efforts need to start today, now so that we can make the 
changes required to prevent any more harm from being done.
    Again, thank you all very much for your courage for being 
here today. And we will look forward to working with you. I 
yield my time. Thank you, Madam Chair, for----
    Chairman Ros-Lehtinen. Thank you.
    Mr. Payne?
    Mr. Payne. Let me thank all of you for coming. I am 
familiar with your testimony, although I was not here 
personally to hear it. I would like to commend each of you and 
as a very strong supporter of the Peace Corps. I have visited 
many sites. I have been to graduations of the ceremonies when a 
new class had their graduation and so much euphoria and pride. 
In some countries, they make outfits that reflect that 
particular country. And so I have been a tremendous supporter 
of the Peace Corps and the tremendous amount of work that you 
have done and really commend all of you.
    I think that part of the problem--you know, and I hear talk 
about we are going to get this legislation going. Part of the 
problem basically has been in my opinion the U.S. Congress, 
U.S. Senate, the House because this is not the first time that 
we have had these kinds of hearings. Back in 2001, the Dayton 
News had a 20-month investigation of Peace Corps. One lady 
found an answer to something that happened in 1979 from this 
series run by the Dayton News. And there was going to be 
reaction. We were going to deal with it in 2001. Then in 2004, 
Senator Dodd had legislation that was going to go to correct 
some of these. And it passed the House, but it died in the 
Senate. Two thousand seven, we had the same thing.
    So, you know, when we look at the problems--and it is easy 
to bash the Peace Corps. And there are probably others who 
might want to see the program ended, might have been a hidden 
agenda because we are having tough times at home, so we can't 
afford to spend a single penny abroad philosophy that I have 
heard a lot from some newcomers.
    But, one, I certainly commend you all for your support of 
the Peace Corps. First of all, to be in the Peace Corps, you 
have to be unique in the first place. So I am not surprised how 
you feel about it.
    I guess my own point is that if we are really going to do 
something, then the Congress has to act. I mean, you can't just 
blame it on an agency that probably would like to have some of 
the enforcement that the legislation would do. Of course, they 
could do things on their own, but if it is backed by the 
Congress, by law, signed by a President, then you might see 
something happen. So, one again, we will bash the Peace Corps. 
They haven't done a good job, which is true in some instances.
    So I just hope that there is going to be the will on the 
part of people who are saying how indignant they are that this 
is happening. For the last 11 years, I have heard what we ought 
to do. And we haven't had one single piece of legislation.
    So I really don't have any questions. I don't know if any 
of you would like to comment. Yes?
    Mrs. Puzey. There were whistleblower protections in that 
2007 Dodd bill. If you had passed it, it is a possibility that 
my daughter would still be alive. So I do urge legislation at 
this time.
    Mr. Payne. Thank you very much. And I hope that we can. It 
passed the House, but once again it just languished and died in 
the Senate. And that is a story of our life. So I really 
appreciate that.
    I will yield back. Thank you.
    Chairman Ros-Lehtinen. Mr. Smith?
    Mr. Smith. Thank you very much, Madam Chair. And I want to 
especially thank you for calling this extraordinarily important 
hearing and for the bravery of the women who have testified 
here today.
    Hopefully this hearing, each of your instances, each of 
your traumas should have been the game-changers and those of 
others who have suffered like you have, but if this hearing 
isn't, I don't know what else could be.
    I mean, the legislation is important. I am sure the 
distinguished gentle lady from Florida will take the lead on 
this. We know she will. And we will all do our parts. But I 
hope that the Peace Corps itself will realize that deploying 
young and very vulnerable young women and men, but mostly 
women, obviously, to places where there is enhanced risk. 
Unlike State Department personnel who are deployed, who have 
access to the compound, they are much more likely to be in a 
protective state, get hazardous pay if they are in a more 
vulnerable deployment area, the Peace Corps volunteers--and the 
chart certainly shows it. I agree with my colleagues. There are 
areas of the world that are much more dangerous to women when 
deployed there. And that ought to be a serious factor to find 
some other area and locale where these women could be deployed.
    Let me just say your testimonies are absolutely chilling. I 
know every member of this committee and those who will follow 
this transcript, perhaps they are watching on C-SPAN, will be 
moved. We need a zero tolerance policy. And that goes 
throughout the entire process: Training; the assessment of 
risk; I thought, Ms. Smochek, failure to prepare; failure to 
protect; the issue of the failure to respond adequately; and 
then the aftermath, of course, the worst fears realized.
    You know, the IG will be testifying shortly. And she points 
out that since Fiscal Year 2004, the Office of Inspector 
General has visited 66 posts, made many recommendations. And 
some 85 percent of the posts were visited. And, yet, 38 
percent, 25 out of 66, were found to be deficient in some 
aspects of their site development. And, as she points out, in 
appropriate site development increases the risk that a 
volunteer's community safety net will be compromised if a 
threat arises.
    The conclusion of the OIG is that--and I would appreciate 
your comments on this--while some important OIG recommendations 
remain open, the agency has made substantial progress in recent 
years in developing a comprehensive safety and security 
program. Do you agree with that?
    And, finally, on the issue of harassment, usually an act or 
acts of sexual assault are preceded by either verbal or some 
other harassing behavior that is clearly the harbinger of what 
may be headed toward that individual or individual's way.
    Did the Peace Corps personnel to whom you reported to, 
those who have been so horrifically victimized, take seriously 
your concerns about the harassment? We know in related issues 
of sex trafficking and other violence against women, where 
there is a culture of impunity, very often it just works 
horizontally to all women, not just those who are bought and 
sold and turned into commodities under sex trafficking. But 
when it comes to women who are extending up and going out as 
ambassadors, as one member said, angels to the world, it seems 
to me that we have to have zero tolerance with regards to that 
risk.
    So if you could?
    Ms. Smochek. Yes. I can certainly speak to the second part. 
I know from my experience, I was placed at a site with two 
other female volunteers. And we all received extensive verbal 
and physical harassment and sexual harassment, even from the 
very first day. And we kept reporting incidents to the medical 
officer, to the safety and security officer and just got the 
same reply of ``Just toughen up. And just deal with it.''
    And I believe that what happened to me, I believe that 
the--I mean, I was targeted by this group of six men. I believe 
that my ultimate gang rape by them and near death could have 
absolutely been prevented. My site was absolutely unsafe. If 
anyone had actually come to really look at all of the reports 
that were being filed and taken them seriously, I mean, we 
asked. We specifically said, ``We are not safe. We do not feel 
safe. We are going to be harmed.'' And we were not taken out of 
this dangerous site.
    And so, I mean, that is just a case in how even what is 
deemed minor sexual harassment or assault can lead, and most of 
the time can lead, to much greater crimes. And so I think that 
there definitely has to be more accountability and response for 
all reports that are submitted. And they need to definitely be 
followed through. Every single report needs to be followed 
through or to really ensure the safety of the volunteer.
    Chairman Ros-Lehtinen. Thank you. Thank you, Mr. Smith.
    Mr. Rivera?
    Mr. Rivera. Thank you, Madam Chair.
    And thank you to the witnesses for testifying here today 
regarding some horrific circumstances. And, particularly Mrs. 
Puzey, my condolences to you and to your family. Thank you for 
coming here today. But also thank you for the service that you 
desired to give to your country and to other countries, to 
mankind. I can't imagine a more altruistic sentiment than the 
ones with which you entered the service in the Peace Corps, 
particularly since, as has been mentioned, the Peace Corps has 
been an integral part of the assistance around the world that 
we provide to other countries. But at the same time, I hope the 
entire world is listening, particularly those that can make a 
difference with respect to your circumstances, that they are 
listening as well.
    It is quite concerning to many of us that you all have 
mentioned many instances, I believe, where perhaps the agency 
has dragged its feet in implementing systematic reforms with 
respect to safety. And that is very troubling to us here and I 
am sure to those who are thinking about volunteering with the 
organization in the future.
    I think the Peace Corps should be held to the highest 
standard of accountability when it comes to the safety and 
protection of the volunteers. And we need to make sure that 
that plan is brought forward and if it hasn't been thus far, 
that it needs to be, particularly after today's hearing. I 
would like, I believe--since I am the last questioner on the 
panel because I don't see Congressman Chabot here, I am very 
interested in moving forward and hearing from the agency with 
respect to what you all have been talking about.
    So I am not going to ask any questions. I want to help the 
chair move forward and get to the next panel, but I will give 
you all since usually witnesses do not get closing statements, 
I will give you all my last minutes. I have got about three. 
Maybe each of you could take 30 or 45 seconds. Just let us know 
your final thoughts. What do we need to do? What do you want to 
see done?
    Ms. Smochek. I will go ahead and start. One thing that----
    Chairman Ros-Lehtinen. A little closer.
    Ms. Smochek. Sorry. One thing that definitely needs to be 
considered in legislation and has not been really addressed by 
the Peace Corps in their latest movements forward is the health 
care services and health care providers within country but also 
with the United States. And that is really key because they, 
again, are the first responders and not only making sure that 
there are trained people who can work with the survivors but 
after service how difficult the issue is to navigate the 
workers' compensation system when you are still in trauma mode. 
And once you are separated from the Peace Corps, that is it. No 
one is there. There is no liaison. There is nothing there. You 
are just left to navigate it completely on your own. Some 
people get information. Others do not. And it really, you know, 
can further harm the survivor.
    Mr. Rivera. Thank you. Thank you very much.
    Ms. Clark?
    Ms. Clark. One thing I would like to point out is that even 
this week, we have received new reports of women who have had 
similar experiences. I think that, as women failed the support 
of Congress, there will be a spike in reports. I would like 
that not to be used as an indication that Peace Corps should be 
disintegrated but, rather, that Peace Corps has taken the 
chance to reform.
    With that in mind, I would say that apologies without 
action are useless. I have had apology from the Peace Corps. I 
haven't seen the action. My goal is that we have long-term, not 
short-term but long-term, action that can be provided through 
legislation.
    Mr. Rivera. Dr. Koenen?
    Dr. Koenen. I would like to conclude just by saying what we 
all want is a better, stronger, safer Peace Corps. And we have 
all come forward with our stories at great personal cost to ask 
Congress to cement the changes that we request in legislation 
so that future generations can serve in the Peace Corps and be 
protected.
    Mr. Rivera. Thank you very much.
    Ms. Marsh?
    Ms. Marsh. I would like to reinforce what the women who 
spoke before me said and also go back to my testimony and 
suggest the Peace Corps follow best practices recommendations 
and reiterate that I feel as though they are taking steps in 
that direction. And I believe that this hearing will help them 
to further that process.
    Mr. Rivera. And, Mrs. Puzey, finally?
    Mrs. Puzey. As has already been said, I think that 
legislation needs to happen now at this time if reforms are 
going to be consistent over time. And also from the Peace 
Corps, I would like to see them be sympathetic and 
compassionate and give the support to victims' families because 
things are going to go wrong. So the families should also have 
that support.
    Chairman Ros-Lehtinen. Thank you very much. Thank you for 
excellent testimony. Thank you for your courage in appearing 
before us today. We will work on legislation to move forward. 
Thank you very much, ladies.
    Now I would like to introduce The Honorable Aaron Williams, 
Director of the Peace Corps. Director Williams was sworn in as 
Director of the Peace Corps on August 24, 2009, the fourth 
director in the Peace Corps' history to have served himself as 
a Peace Corps volunteer.
    Mr. Williams served from 1967 to 1970, in the Dominican 
Republic. Upon completing his service, he became Coordinator of 
Minority Recruitment and Project Evaluation Officer for the 
Peace Corps in his hometown of Chicago. Mr. Williams has 
pursued a career in development, and was awarded the USAID 
Distinguished Career Service Award. We thank Mr. Williams for 
taking the time to appear before this committee. We will 
consider your testimony as having been printed as full.
    And if you would summarize your statement to 5 minutes? And 
we will ask questions at the appropriate time. So we will just 
give them a few minutes.
    [Pause.]
    Chairman Ros-Lehtinen. We made good use of our time, didn't 
we? Thank you, Mr. Williams. You are recognized. And feel free 
to summarize your statement. Thank you very much, sir, for 
appearing before us. Thank you, sir.

 STATEMENT OF THE HONORABLE AARON S. WILLIAMS, DIRECTOR, PEACE 
                             CORPS

    Mr. Williams. Good morning. Madam Chairman, Ranking Member 
Berman, members of the committee, thank you for the opportunity 
to testify about the steps that Peace Corps has taken to 
improve the safety, security, support, and care of our 
volunteers.
    I am a returned Peace Corps volunteer. So I am a part of 
the Peace Corps family. It is an honor to lead this agency that 
has meant so much to me throughout my life. The health, safety, 
and support of every member of our Peace Corps family is my 
number one priority.
    Peace Corps volunteers represent the best that America has 
to offer, and we owe them nothing less in return. We make a 
commitment to every volunteer that we will support them during 
and after their service in the same way that every volunteer 
makes a 27-month commitment to service overseas.
    Unfortunately, the Peace Corps has not always lived up to 
its commitment. The powerful testimony of the courageous 
witnesses today shows us that the trauma and pain that they 
experience can be acute and lasting. We sincerely regret that 
we did not fully appreciate this in the past. It is not our 
intent to victimize our volunteers a second time. We want to do 
everything we can to help them heal.
    The brave women who have come forward have shown us that 
the Peace Corps has not always been sufficiently responsive, 
compassionate, or sensitive to victims of crime and their 
families. It is heartbreaking to learn that. And I apologize 
for any additional pain the agency has inflicted on our 
volunteers.
    The victims of sexual assault deserve nothing but 
compassion and support. Each volunteer is a valued and 
treasured member of the Peace Corps family. A crime against one 
is a crime against all of us.
    Since the Peace Corps was founded 50 years ago, more than 
200,000 Americans have served in 139 countries. We are all 
enormously proud of their service, both to the United States 
and to the host nations. Today we have 8,600 volunteers in 77 
countries.
    Volunteers embody compassion, generosity, and a dedication 
to our mission of world peace and friendship. It is these 
qualities that deepen our pain when there is a loss. We care 
profoundly about the welfare of our volunteers. Every life lost 
and every act of violence against a volunteer is a tragedy.
    I have personally met with the parents of Kate Puzey, the 
outstanding volunteer who was murdered in March 2009. I assured 
Mr. and Mrs. Puzey and their son David that the Peace Corps and 
the United States Government have united with them in seeking 
justice for Kate.
    Lois, Harry, and David have shown incredible strength, and 
I am deeply grateful to them for helping us to improve the way 
we handle sensitive information and support the families of 
fallen volunteers. I regret that the Peace Corps did not do a 
better job early on in supporting and communicating with them.
    My staff and I have also met with a number of returned 
volunteers who have shared personal experiences of rape and 
sexual assault. I would like to thank them for their courage in 
speaking out and for helping us to make needed reforms. They 
have enlightened us. And they have helped us understand the 
lasting damage suffered by victims of crime. We do not want 
those experiences repeated.
    The Peace Corps of today takes the issue of sexual assault 
prevention and response seriously. And we are dedicated to 
providing compassionate victim-centered support. Since I became 
Director in August 2009, the Peace Corps has put in place new 
policies and practices to reduce the risks faced by volunteers 
and to ensure they receive our full support when a tragedy 
occurs.
    Let me tell you a little about the things we have done. We 
have issued Peace Corps' commitment to sexual assault victims, 
a set of core principles to ensure we provide timely, 
effective, and compassionate support to victims of sexual 
assault. We have implemented and trained our staff on new 
guidelines for responding to rape and sexual assault. The 
guidelines are victim-centered with specific procedures that 
all of our staff around the world have to follow to respond 
promptly and provide the best possible support.
    The agency's sexual assault working group is developing a 
comprehensive sexual assault prevention and response program. 
This group, by the way, includes returned volunteers, survivors 
of rape and sexual assault, as well as our staff, which has 
expertise in trauma response.
    Since last year, we have been developing comprehensive new 
training for volunteers before and during their service on 
sexual assault prevention and response. We will begin rolling 
this out this summer.
    We have signed a memorandum of understanding with RAINN, 
the nation's largest organization on battling, combatting 
sexual violence. That is going to be a very important part of 
our response.
    Also, at the response of the brave women of First Response 
Action, I hired a nationally recognized leader in victims' 
rights to be our agency's first victims' advocate. She is here 
with me today. She will make sure that victims of crime get the 
emotional, the medical, the legal, and other support they need.
    At the suggestion of Congressman Poe--and thank you, sir, 
for your suggestion--I created the Peace Corps volunteer sexual 
assault panel, made up of outside experts and returned 
volunteers who were victims of sexual assault, to help us 
design and implement our sexual assault and risk reduction and 
response strategies.
    Madam Chairman, we are committed to a reform agenda. We 
have improved the agency's global safety and security program 
by working to implement the recommendations by our Inspector 
General that were made in 2010. I believe these reforms will 
better protect our volunteers around the world. More needs to 
be done. And I look forward to working with you and others to 
ensure the continued success of our volunteers. Their 
willingness to serve our country is an inspiration.
    Thank you very much. And I look forward to the questions 
that you might ask.
    [The prepared statement of Mr. Williams follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you very much, Mr. Williams. 
We thank you for your service.
    Although it is not a perfect comparison, much has changed 
on college campuses in the past 20 years in the way that 
administrators, faculties, students, and all of the staff 
respond to victims of sexual abuse, and it has improved for the 
better in the past 20 years.
    When I went to college, you did not know where to go for 
help, how to report it, or get any kind of help. A lot has 
changed. Mistakes and crimes do occur, but they are treated in 
a far more serious vein than before, not a perfect comparison 
but as it relates to the Peace Corps.
    I was just jotting down what we have heard from the 
victims, and the common denominator is to change the focus from 
a culture of blaming the victim to not blaming the victim. So, 
I am curious to hear about how you are shifting, not you as a 
person, but the culture of the Peace Corps, and the folks that 
you have in-country to shift their focus from blaming the 
victim and trying to downgrade the crime--and it is a crime--to 
be more supportive in helping the victim to report the crime, 
making it easier to report the crime, and not blaming the 
victim.
    Some of the notes that I was taking down, training for in-
country personnel on how to respond to sexual assault 
survivors, the doctors that you have in-country, that they need 
training in post-rape exams so that they get the evidence they 
need in order to present the case in court, meeting advocates 
in DC and throughout and different cities of people who 
understand what the survivors are going through, Workers' 
Compensation deadlines--to eliminate that deadline, Peace Corps 
should facilitate interaction among assault victims, instead of 
trying to separate them or downplay the crime that has been 
perpetrated against them--having whistleblower and training 
procedures in place. Also, many of the survivors shared with 
us, either verbally or in their written statement, and talked a 
lot about the training video that is still being played and 
whether that is adequate, that really focuses on the problem, 
or whether it is blaming the victim and trying to make it sound 
like they might be the ones responsible for the crime.
    Also, reporting and making that reporting public, which has 
been a very important part of the college campus change in 
their culture, is mandating through legislation that they have 
to report the crimes that are committed on campus. Where are 
those unsafe places? Is the Peace Corps reevaluating where 
volunteers are placed? Also the Annual Volunteer Surveys, if 
that is shared with others so that we know where the sexual 
assaults are taking place.
    So, I would just share those with you and perhaps you could 
discuss how blaming the victim, more than anything else, is 
changing in the Peace Corps and the country selection, whether 
we are making sure that we have evacuation procedures in place 
to get those victims out of harm's way.
    So, let me ask you the following questions. The Peace Corps 
is subject to the 5-year employment rule, which statutorily 
restricts the tenure of U.S. direct hires, including regional 
directors, county desks, country desk officers, et cetera. The 
GAO noted, ``One factor that may contribute to the Peace Corps' 
difficulty in implementing its safety and security policies is 
turnover among key managers.''
    Do you think that this 5-year rule makes it more difficult 
for the Peace Corps to protect its volunteers? Would you 
support legislation eliminating this 5-year rule?
    Mr. Williams. Thank you, Madam Chairman.
    Regarding the 5-year rule, it was put in place, of course, 
by the legendary Sargent Shriver when he was Director of the 
Peace Corps in order to make sure the Peace Corps had a 
continual flow of fresh blood, returned volunteers from the 
field to help design and continue to implement Peace Corps' 
programs worldwide.
    I think that there is always a need for fresh blood in any 
organization, especially I think in terms of an agency that 
focuses on young people around the world volunteering, but at 
the same time I am more than willing to entertain and discuss 
with you and other members of the committee the aspects of the 
5-year rule that might have a direct bearing on our safety and 
security.
    Chairman Ros-Lehtinen. Thank you so much.
    In response to the survivors' testimony, the agency's 
frequently asked questions brochure and safety and volunteer 
support brochure assert that, ``Volunteers who are victims of 
sexual assault can expect to receive extensive support as it 
relates to their safety, medical, and psychological care, legal 
options, and continued service with the Peace Corps.''
    However, the testimony presented to this committee and 
testimony that I have gotten since we have posted this hearing 
indicated that volunteers in general are inadequately trained 
on sexual assault issues or often placed in dangerous 
situations, that the agency's in-country response frequently 
fails to meet the survivors' needs, that upon return to the 
U.S., volunteers often receive hostile, rather than supportive, 
treatment and that institutional obstacles often prevent 
survivors from receiving long-term medical and mental health 
care.
    How do you explain the significant discrepancy between what 
the brochures say, what the video says, and what has been 
presented before us?
    Mr. Williams. Madam Chairman, there is no doubt that what 
these courageous women have done has opened our eyes to a 
problem that we need to correct. And we need to correct it now. 
And I want to work with you to do that.
    Let me just mention one thing about the video. I am going 
to replace the video immediately because I have listened very 
carefully to the victims and their view of the video. We have 
been over the past few months designing a new revamped training 
program, which will include also pre-service training. And so 
we are going to have state-of-the-art.
    One of the important things that we are doing right now is 
the fact that we are going to be listening and working closely 
with RAINN. RAINN is, as you know, a preeminent organization. 
They are going to guide us.
    I was listening very carefully to the RAINN 
representative's testimony this morning. I think that she has 
provided a road map, if you will, of things that we need to 
follow as we move forward to revamp and reform the Peace Corps.
    So rest assured that this type of thing of blaming the 
victim will not continue in the Peace Corps today.
    Chairman Ros-Lehtinen. I thank you so much for your 
attitude, I am very confident that those changes will take 
place. Thank you, Mr. Williams.
    Mr. Berman?
    Mr. Berman. Well, thank you much, Madam Chairman.
    I would like to continue down the line that the chairman 
started in terms of some of the specific suggestions. When one 
reads the e-mail or not reads because I didn't but listened to 
the show and heard Mrs. Puzey talk about the e-mail from her 
daughter to the country director, I reached a conclusion that 
unless there is something I don't know, such a high level of 
recklessness to allow the perpetrator's brother to somehow have 
access to it is almost beyond comprehension because that was a 
sophisticated e-mail that warned of the dangers. It laid out a 
road map of what should not happen. And it seems to have been 
ignored unless, again, there are facts I don't know.
    Whistleblower protection in that case I think means two 
things: One, as a general principle, no retaliation against the 
victims who are filing complaints regarding what happened; but, 
secondly, the issue of confidentiality. And is that something 
that through practices or legislation you could support?
    Mr. Williams. Well, thank you, Congressman Berman. Without 
a doubt, we would be open to looking at legislation that could 
strengthen the Peace Corps in terms of providing enhanced 
safety and security for our volunteers, no doubt about it. I am 
prepared to sit down with any member of this committee or 
anyone in the Congress and discuss this.
    We have already been engaged in conversations regarding 
whistleblower protection with Senator Isakson.
    Mr. Berman. You are open, then, to a----
    Mr. Williams. Yes.
    Mr. Berman [continuing]. Legislative approach to deal with 
the institutionalization of the reforms that you are embarking 
upon?
    Mr. Williams. Yes, sir, I am, because, referring back to 
the question from Madam Chairman, the 5-year rule is an issue, 
obviously, that we need to take a look at. And so to the extent 
that we could codify these important best practice policies and 
best practices is no doubt something we need to give serious 
consideration to, working in conjunction with the Congress.
    Mr. Berman. A second issue. This issue of the role of the 
Peace Corps with the victim who is separated from the Peace 
Corps in terms of very specifically the Workers' Comp 
situation, there are issues of ongoing medical attention, 
counseling, other benefits under the law, going through that is 
not such an easy process in terms of the forms and the 
procedures for utilizing the Workers' Comp system to get 
compensation for those costs.
    I was led to believe from the testimony the Peace Corps 
sort of eliminates its involvement once the volunteer has 
separated. Why does that have to be?
    Mr. Williams. Congressman, I think you are absolutely 
right. We need to take a serious look at that in terms of our 
ongoing support for members of the Peace Corps family because 
just because a volunteer has been separated from official 
service doesn't mean that there is not an ongoing need for care 
and support. And I want to work out an arrangement whereby we 
can do that.
    One of the things that I have asked my victims' advocate in 
her new position to do is to sit down with me and the 
Department of Labor to see how we can coordinate to provide 
better support to volunteers so they won't have to navigate the 
bureaucracy on their own. I think they deserve that. And I am 
prepared to look into how we can do that in a very effective 
and efficient way.
    Mr. Berman. Another suggestion I heard coming from the 
testimony was while what you have done in terms of the advocate 
in Washington is a very important first step, at least until 
the training has so taken hold that each country team can 
provide those services on their own, isn't there logic in 
having some group of roving advocates who can go on site and 
make sure that the best practices are, in fact, being 
implemented?
    Mr. Williams. I think that is a good management practice 
across the board in many of our operations. And certainly I 
want to entertain that and determine how we can best move 
forward. I think it is an excellent idea.
    Mr. Berman. Thank you very much. And I do appreciate your 
openness to legislation because I do think a pretty compelling 
case has been made that it is important for us to 
institutionalize this. And obviously we want to get your 
reactions as we go along to the workability of what we are 
talking about.
    Mr. Williams. Thank you very much because we want to 
cooperate to the extent we can with the members of this 
committee. Thank you.
    Chairman Ros-Lehtinen. Thank you so much.
    Judge Poe?
    Mr. Poe. Thank you, Madam Chair.
    Mr. Williams, good to see you again. Thank you for coming 
by and letting us vet this issue and your response. And I 
believe in about 6-8 weeks we are going to meet again on some 
of the things we talked about earlier.
    I look at this issue as a human rights issue. You know, 
America, we are the human rights country. We go throughout the 
world promoting human rights in a whole bunch of ways. I think 
it is important, though, we return and focus on the human 
rights of Americans that go abroad in the Peace Corps.
    And thank you for your service in the Peace Corps. It is a 
great organization. I don't want to see it disappear. I think 
we ought to encourage it, make it better.
    I see this issue as kind of several parts. First, when a 
crime is committed, we have the victim. And then we have the 
Peace Corps response, which is what we are going to work on 
legislatively, I hope.
    But also the Peace Corps response must I think include two 
other avenues that haven't been talked about today. And that is 
that Peace Corps' interaction with the country that the victim 
was in and what is their response, how are they going to deal 
with this crime committed in their country.
    And, lastly, the perpetrator. There is a criminal involved 
in these criminal actions. And how do we see our interaction 
with some foreign country going after the outlaw that committed 
this crime? And so those are the things that we need to work 
on.
    We don't have time to verbalize those now. But I would hope 
as we proceed with legislation, with your help, with RAINN, and 
all of the victims that are here, that we can figure out a way 
to make the country that we are trying to help, these angels 
are helping, be responsive to the crime that was committed in 
their country as well.
    And I will just hear some short comments from you on that 
issue if you care to make them.
    Mr. Williams. Thank you, Congressman Poe. And thank you 
also for the care and concern that you have for the Peace 
Corps. You supported the Peace Corps. And I have appreciated 
our conversations. We will follow up, as you say, in a few 
weeks to continue that.
    Regarding care of victim, this is going to be first and 
foremost in our response. We are going to make sure that it is 
a victim-centered approach. We are going to be compassionate. 
All of our medical personnel have been trained in how to work 
with victims of sexual assault. There is nothing more 
important.
    It is not just going to be at the country or the post. It 
is going to be a continuum when they return back to the United 
States, either to their home of record or if they are in 
Washington. And it is a team effort. We are all going to make 
sure, all of our staff, our senior management, is focused on 
this. We are committed to making this, changing the culture 
that these courageous people have encountered in the past. We 
are going to change that.
    Regarding the host country, the host countries around the 
world, as you know so well, want the Peace Corps to stay there. 
And so we find in working with the country team, with the 
Ambassador, with the regional security officer, each of the 
Embassies, that the cooperation we get from local law 
enforcement has been very good. They are very interested in 
finding the perpetrator, the criminal who attacked a Peace 
Corps volunteer, no matter what the type of attack is. And we 
have seen a lot of good cooperation from them working with our 
local safety and security coordinator in each of our countries. 
And that will continue to be the case. And we will do 
everything we can to pursue that.
    But, again, it is also something that the Ambassador in our 
country, U.S. Ambassador, also has been very, very--in just 
about every country we can think of where we have had issues, 
they have been determined and have been a willing ally in this 
fight, sir.
    Mr. Poe. I am going to yield back the remainder of my time, 
Madam Chair.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Payne?
    Mr. Payne. Thank you very much, Madam Chair, for calling 
this very important hearing. And let me welcome you, Mr. 
Director Williams. It is good to see you again. I appreciate 
it. At the meeting we had early on, when you took over the 
responsibilities as the head of the Peace Corps, as I have 
indicated, I think it is one of the greatest organizations that 
the U.S. back in the early '60s created. And I think they 
really do an outstanding job.
    And I think that this year, rather than having this kind of 
hearing, unfortunately, we should be really celebrating the 
50th anniversary of the Peace Corps. And hopefully we can 
really come up with the corrective work that we can deal with 
the problems and once again highlight the great achieves that 
the Peace Corps has made.
    I visit many developing countries. And one of the first 
things they ask if you don't have a Peace Corps is, ``Can you 
send in the Peace Corps?'' And the U.S. Ambassadors and the 
heads of countries, many of them, as a matter of fact, many of 
the leaders of countries today, had experience with the Peace 
Corps. They even learn English at a Peace Corps school. And 
they really want the Peace Corps there.
    So I know that the problem is not with the host countries 
but there has to be better coordination between the host 
country and the Peace Corps. As I mentioned before, I have been 
to the graduation ceremonies after new Peace Corps members 
come, usually a whole group, those who determine they are 
staying. And usually, you know, 98 percent of them go through 
the training. They have their celebration and their graduation. 
I have spoken at a number of those in sub-Saharan Africa in 
particular. So I have a very strong feel for the Peace Corps 
and what you have done.
    I wondered this, number one, if in certain countries sexual 
assault is more prominent in other countries, as we know. They 
are all different. Is there any special kind of precautions or 
inculcation with the volunteers to assess them of the fact that 
culturally in some places sexual assault has not been 
prosecuted by that country? Does that come into play? And do 
you do anything special in those areas?
    Mr. Williams. Thank you, Congressman Payne. And thank you, 
sir, for your historic support of the Peace Corps. I know you 
take every opportunity to visit our volunteers and to learn 
what they are doing.
    I think that we have had very good success in host 
countries in finding the perpetrators of these crimes and in 
prosecuting them because, again, this is crucial to them 
because, as you know ,they want the Peace Corps to remain in 
their country. And so when there is a crime committed against a 
volunteer, we have had very good cooperation from local 
authorities.
    And the other thing is that we make sure that when a victim 
has made a decision to pursue this with local authorities, that 
the victim is accompanied and supported by the Peace Corps 
every step of the way, but we have seen good support from local 
authorities, sir.
    Mr. Payne. Thank you.
    Now I know you have a $26 million budget cut coming up in 
this fiscal budget. And the programs that you are trying to put 
in, is there any way you can preserve the work in protecting 
some of these new initiatives that we are trying, in spite of 
the cuts that you are going to evidently receive? Could you 
ensure that you still work on these issues that have been 
raised here today?
    Mr. Williams. I am committed to making sure that whatever 
resources are provided by the Congress, whatever level of 
budget we have, we are not going to compromise on the health, 
the safety, and security of our volunteers. We might not be 
able to go into a new country, might not have as many 
volunteers come, expanding in certain countries, but what is 
first and foremost for us is the health, safety, and security 
of our volunteers. We are going to use every dime we have to 
make sure we support that.
    Mr. Payne. Just finally, as you know, as we have talked 
about the death of our volunteer Cathy, it certainly concerns 
us all. And, now, we are waiting for the final report of her 
investigation.
    We have great concern for the safety of Peace Corps 
volunteers who report violations of other Peace Corps workers. 
Can you lay out what protections are in place to ensure that 
volunteers are protected so that we don't have a similar 
situation occur?
    Mr. Williams. Yes, sir. Thank you.
    We want to be sure that we protect the confidentiality of 
any information that any volunteer provides to our staff. So we 
have trained overseas staff in how to respond appropriately 
when volunteers bring allegations of wrongdoing to their 
attention.
    This policy, which dates to early 2009, requires any staff 
member who receives or has knowledge of a volunteer's 
allegation to treat the allegation with the utmost discretion 
and confidentiality, to take appropriate measures to ensure the 
volunteer's safety, and to ensure that the allegation is given 
serious consideration, including referring to our Inspector 
General.
    That is our policy. And, more than the policy, that is the 
way we are implementing this. And we are going to provide 
oversight.
    And I travel. I have traveled to 10 countries in the past 
1\1/2\ years since I have been Peace Corps Director. And my 
senior staff travels extensively. These are the kinds of 
questions and concerns that we express and look into deeply 
when we do that. So not only do we have a policy. We are going 
to implement the policy. We are going to follow up and provide 
oversight.
    Thank you.
    Chairman Ros-Lehtinen. Thank you.
    Ms. Buerkle?
    Ms. Buerkle. Thank you, Madam Chair, and thank you, Mr. 
Williams, for being here this morning and giving us this 
opportunity to question and also for your willingness to sit 
through the very difficult testimonies we heard earlier.
    I have several questions. I would like to begin by both the 
Bush administration and the Obama administration have 
encouraged and talked about doubling the number of Peace Corps 
volunteers. Do you think that given what has gone on and what 
doesn't seem to be under control at this point, that that would 
be a prudent objective for the Peace Corps?
    Mr. Williams. I think that right now we are in 77 
countries, Congresswoman. And that is a very effective 
footprint worldwide. I believe that we could grow and still 
manage our responsibilities in a very sound way because we are 
going to make the reforms, we are going to implement those 
reforms. And we are going to get the best possible expertise 
that we can bring to bear to help us manage this as we go 
forward. So I am confident that we could continue to grow, but 
all of this, of course, is going to be dependent upon our 
budget.
    Ms. Buerkle. In your testimony, you talked about training 
for the volunteers. And that has not been implemented yet. When 
do you expect that that will be implemented?
    Mr. Williams. We are in the final stages of finalizing the 
new training. We are going to start rolling it out this summer. 
So, you know, in a couple of months, we will roll it out.
    And also we want to listen very carefully to our colleagues 
at RAINN as we move forward with this training because it is 
important to train, first of all, our staff, but also just as 
important the volunteers so that we have an effective dialogue 
between staff and volunteers as we move forward.
    Ms. Buerkle. If you would, could you please let us know 
when that begins to get rolled out and keep us informed as to 
the progress of that?
    Mr. Williams. I certainly will. I will be happy to do that. 
Thank you for the question.
    Ms. Buerkle. We heard testimony this morning and 
specifically in the instance of Kate. She was in an area, a 
remote area, that didn't have Internet or phones. How will you 
address that going forward so that these volunteers have a 
safety net, that they can have some means of communicating any 
danger that they might feet?
    Mr. Williams. One of the things that is our goal when we 
place any volunteer in a site is to make sure they are placed 
in a community setting where, in fact, they are not going to be 
alone, per se. They have counterparts that they see every day, 
whether they are health care workers or teachers. There are 
host families. We work with local law enforcement. We take 
careful attention. We pay careful attention to site selection. 
There is supervision by our staff and headquarters.
    Also, we listen very carefully to the volunteers. There is 
something we have in Peace Corps which we didn't have when I 
was a volunteer, which I think is a wonderful new arrangement. 
That is something called a Volunteer Advisory Committee. And 
they provide a lot of information and oversight in many ways to 
staff. I listen to them very carefully. I meet with them when I 
travel. And so we spend a lot of time thinking about site 
selection.
    At the same time, if a volunteer feels unsafe, if he or she 
feels that this is not a safe setting, I want my staff to take 
immediate action to look for other places for the volunteer to 
work because we have other sites. In all the countries where we 
work, there is no need for one of our volunteers to feel unsafe 
in a situation. We have to listen to the volunteers.
    Ms. Buerkle. And so can you tell us what changes have been 
made? Because we heard from a panel this morning that when they 
expressed their concerns to their superiors, they were ignored.
    Mr. Williams. Well, I think, first of all, we have 
established a policy of listening to volunteers. I have asked 
the regional managers for Africa, Asia, Latin America to carry 
out these policies to make sure we provide oversight.
    I listened to--the Volunteer Advisory Committees are a very 
important source of information because they represent the 
volunteers. They are elected by the volunteers. And they are 
not shy about providing me with e-mails and calls to tell me 
about things that they believe need to be changed. So we are 
going to listen to the volunteers. And I am going to make sure 
as a practice that if a volunteer feels unsafe, we have to take 
action.
    Ms. Buerkle. And so the whistleblowers' provisions and 
concerns, that makes that even more important that time is of 
the essence so that we can protect whistleblowers and protect 
those who are willing to call your attention to some situation 
and not fear retaliation.
    The last piece is we see on the map over here--and we have 
been provided with those maps--that there are areas that are 
even more unsafe than others. Those areas, will there be 
enhanced safety procedures or will it be applied uniformly 
across the board, regardless of the location?
    Mr. Williams. One of the things that is important is that 
we do not intend to put volunteers in unsafe countries. Many 
countries want Peace Corps to enter their countries. But before 
we do that, we have to make sure we have a permissive 
environment.
    We work with the Ambassador in those countries. We work 
with the regional security officers. We conduct a full country 
assessment before we agree to move into any country. And if a 
country is deemed to be unsafe at any level, we are not going 
to place volunteers there.
    Ms. Buerkle. Thank you. I look forward to working with you. 
This legislation couldn't be more important. And I think time 
is of the essence. So thank you very much for being here this 
morning.
    Mr. Williams. Thank you. And I look forward to working with 
you and your staff also.
    Ms. Buerkle. Thank you. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you, Ms. Buerkle.
    Mr. Smith?
    Mr. Smith. Thank you very much, Madam Chair. And, again, 
thank you for calling this extraordinarily timely hearing 
because I think it will get results. Sometimes hearings come 
and go and they pass and nobody pays attention. This one will. 
So thank you.
    Let me just ask you, Mr. Williams. You said that there was 
good cooperation with local authorities when there is an 
allegation made. You mentioned that these countries are ``very 
interested'' in tracking down the perpetrator. Could you define 
exactly what that means? For example, how many arrests have 
occurred? How many convictions have occurred as a result of 
rapes of Peace Corps volunteers? What, if anything, was 
required of our Peace Corps volunteer as that court case went 
forward? And I mean be very, very specific.
    One of the things we have learned with trafficking is that 
countries will talk a good game and then be very deficient in 
doing anything to mitigate sex trafficking. And it is often the 
police. It is often the judiciary, untrained judges, and, 
really, a culture of impunity. So if you could answer that one?
    Secondly, today if a woman does report a concern over her 
safety, I mean, today, right now, what absolutely happens in 
that case? Is she redeployed? Is there an assessment done as to 
the validity of her concerns? Is she in any way penalized for 
coming forward and causing some aggravation on the part of 
somebody higher up in the chain of command? Is there an 
immediate redeployment? And is there, another question, an 
assessment of places where these instances have occurred? Do 
you keep in track?
    For example, Bangladesh, in one particular locale, there 
may have been five attacks. Do we have any idea in terms of 
tracking whether or not there has been a pattern in any 
particular area? And once an allegation has been made and it 
seems to me that there would be no credible reason why an 
allegation wouldn't be given full faith that that woman is 
concerned about something about to or that actually happened. 
Is that area then put on a do not send or deploy a Peace Corps 
volunteer to that area so that there is a zero tolerance when 
it comes to that particular area?
    And, finally, in 2010, the agency's Inspector General found 
that between Peace Corps and State Department, there was an 
unclear responsibility that could ``compromise volunteers' 
safety and hinder response to crimes against volunteers.''
    The IG recommended that the Peace Corps develop formal 
documentation with the Department of State's Bureau of 
Diplomatic Security to clarify the roles and responsibilities 
for overseas safety and security regarding Peace Corps staff 
and Peace Corps volunteers.
    To date, the Peace Corps and State Department lack a 
memorandum of understanding establishing the agencies' 
respective responsibilities to volunteers. Will that happen 
immediately? And why hasn't it happened to date?
    Mr. Williams. Thank you, Congressman. And thank you for 
your support of the Peace Corps. I know you have been a strong 
supporter of the Peace Corps.
    Let me answer your first question regarding the pursuit of 
the criminals. We have been very successful, we believe, in 
working with our partners in host countries to bring 
perpetrators to justice. In 2009 and 2010, arrests were made in 
61 percent of the rape and attempted rape cases in which the 
victim elected to file a report with local police. And so we 
see strong support.
    The other thing, these cases are high-profile cases in 
small, developing countries, as you well know. Our Ambassadors 
are determined to pursue justice for our volunteers. And so we 
believe we have gotten good cooperation, and we continue to 
pursue this.
    Mr. Smith. Could I ask you on that point, from the 61 
arrests, 61 percent of the arrests, could you maybe break down 
for the record exactly how many that turns out to be and 
whether or not they were convicted and whether or not they 
served time in prison?
    Mr. Williams. I don't have those stats with me, but I will 
get them for you and submit them for the record. And I will be 
happy to do that.
    Mr. Smith. Because the arrests could be done to placate us.
    Mr. Williams. Of course.
    Mr. Smith. And then the real meting out of justice then 
goes undone.
    Mr. Williams. Very fair point.
    Mr. Smith. Thank you.
    Mr. Williams. Your point about the MOU with the Department 
of State----
    Mr. Smith. Yes?
    Mr. Williams [continuing]. We are currently in discussions 
with the Department of State about the clarification of 
responsibilities per the IG's recommendation. We hope to have a 
resolution of that very soon.
    Mr. Smith. Yes.
    Mr. Williams. That is way overdue.
    Mr. Smith. Thank you.
    Mr. Williams. We need to get it done. And my colleagues at 
the State Department stand ready to do that.
    Mr. Smith. Does your office work with and do you have 
anybody that works with on a regular basis the TIP Office? I 
know that you work with the Interagency Council, but is there a 
regular dialogue with, for example, Ambassador Luis CdeBaca 
because, again, there are many instances where, countries 
where, especially Peace Corps women volunteers are being 
deployed, where they happen to be a Tier 3 country and a 
country on the watch list that could be Tier 3 soon? I'm out of 
time, but if you could just--do you work with the TIP Office?
    Mr. Williams. I don't know to what extent we have frequent 
conversations with the TIP Office, but we, of course, work very 
closely with Diplomatic Security. But this is an excellent 
idea. I will talk to our safety and security people to make 
sure we step that up.
    Thank you, sir.
    Chairman Ros-Lehtinen. Thank you, Mr. Smith. And thank you, 
Mr. Williams. We will look forward. Our committee looks forward 
to working with you; with RAINN; with victims and survivors of 
sexual assault; with Peace Corps volunteers, former and 
current, who are undergoing difficulties in drafting 
legislation that will improve their reporting of crime and 
improve your ability to respond to what is a serious crime and 
change the culture to a victimless and not a blame the victim 
mentality but blame the perpetrator and the person who is 
causing the crime and not the victim.
    So thank you, Mr. Williams. We appreciate it.
    Mr. Williams. Thank you, Madam Chairman. Thank you and the 
members of the committee for support of the Peace Corps and for 
looking for ways to help make the Peace Corps stronger as we 
move forward to another 50 years.
    Chairman Ros-Lehtinen. Absolutely.
    Mr. Williams. I sincerely appreciate that.
    Chairman Ros-Lehtinen. Thank you.
    And, finally, I would like to introduce Kathy Buller, 
Inspector General of the Peace Corps. Ms. Buller was named by 
the Director to be Inspector General of the Peace Corps on May 
25, 2008 with over 20 years experience in the Inspector General 
community.
    As a member of the Council of Inspectors General on 
Integrity and Efficiency, Ms. Buller is also co-chair of the 
Inspections and Evaluations Committee and a member of the 
Legislation Committee.
    Thank you, Ms. Buller, for appearing before us today. Your 
full statement will be made a part of the record and we ask 
that you summarize it in 5 minutes.
    Chairman Ros-Lehtinen. Thank you and welcome.
    Ms. Buller. Thank you.

  STATEMENT OF MS. KATHY A. BULLER, INSPECTOR GENERAL, PEACE 
                             CORPS

    Ms. Buller. Madam Chairman Ros-Lehtinen, Ranking Member 
Berman, and distinguished members of the committee, I thank you 
for inviting me to appear before you and allowing me to 
summarize my prepared statement.
    I would also like to acknowledge the courage and the 
strength that the returned Peace Corps volunteers and the Puzey 
family demonstrated today when they testified before this 
committee.
    As the Inspector General of the Peace Corps, I am charged 
with independent oversight of the agency. I began my tenure as 
IG in 2008. And since then my office has reviewed key safety 
and security functions at headquarters and our post-audits and 
in our program evaluations.
    We have issued many recommendations for improvement. While 
the agency has made strides to improve its safety and security 
program, several problems continue to surface. We continue to 
report a lack of management oversight and inconsistencies in 
safety and security staff qualifications and training.
    Peace Corps is a highly decentralized agency with 
headquarters staff primarily relying on country directors and 
their staff to run the programs in the field. This model is 
only successful when there are clear lines of communication, 
well-established policies and procedures, and adequate 
oversight functions at headquarters.
    The Peace Corps Office of Safety and Security was created 
in response to the 2002 GAO report to ``foster improved 
communication, coordination, oversight, and accountability for 
all Peace Corps safety and security efforts.'' However, posts 
are not accountable to the Office of Safety and Security. 
Instead, regional offices provide guidance to country 
directors. And these offices are responsible for monitoring 
compliance, which results in uneven implementation of policies 
and procedures across posts.
    Peace Corps must ensure that safety and security managers 
at headquarters have the authority to ensure safety and 
security functions at the post are carried out. The Safety and 
Security Office must function as the office it was intended to 
be, rather than merely a consultative office for overseas 
posts.
    Peace Corps' approach to safety and security is built on 
the acceptance model. Fundamental tenets of this model include 
building relationships, sharing information, training, site 
development, incident reporting and response, emergency 
communication and planning.
    Our 2010 audit of safety and security indicated that Peace 
Corps overseas safety and security staff are not consistently 
qualified to support volunteers in achieving the goals of this 
acceptance model.
    Volunteers serve in 77 countries. And I acknowledge that 
what might be required in one country may not be applicable in 
another. But there should be a baseline of what is acceptable 
and the agency management needs to hold all posts accountable 
to this standard.
    In security situations, such as violent crimes, 
kidnappings, and acts of terrorism, every second is vital. And 
strong coordination between Peace Corps and the Department of 
State is essential. There needs to be a memorandum of 
understanding that would define each agency's role and 
responsibilities in specified volunteer safety and security 
situations. I have recommended that the agency formalize an MOU 
with the Department of State on safety and security-related 
issues. This MOU is a critical step in improving the agency's 
capacity to effectively respond to security situations.
    Volunteer safety and security is also compromised by the 
agency's failure to implement OIG recommendations. Since 2004, 
OIG has found that 44 percent of posts audited were not in 
compliance with the requirement to obtain a background check of 
post staff. After the policy was revised in September 2009, to 
include short-term contractors, OIG found that 73 percent of 
posts audited were not compliant.
    We identified the timely and effective remediation of OIG 
recommendations as a management challenge in the agency's 2011 
performance accountability report. Also, the agency left the 
chief compliance officer position vacant for 1 year and 7 
months.
    Since the new chief compliance officer arrived, more than 
300 recommendations have been closed. However, as of today, 205 
recommendations remain open, some dating back to early 2008. 
For example, in our 2008 evaluation of volunteer safety and 
security, there are still open recommendations about training 
for volunteers and staff, volunteer housing standards, 
emergency preparedness, and crime reporting.
    Peace Corps has made progress in addressing the agency's 
safety and security issues since GAO issued its concerns in 
2002. My office will continue to assist the agency in improving 
the safety and security of volunteers. We have commenced a 
review of the agency's implementation of guidelines and 
protocols related to volunteer victims of sexual assault and 
also plan to follow up on our previous work. We would also like 
to express our gratitude to the survivors for their cooperation 
as we conduct our review.
    I believe that, as Peace Corps celebrates its 50th 
anniversary, the agency has the opportunity to renew its 
dedication to volunteer safety and security and ensure the 
sustainability of the agency's mission for another 50 years.
    Thank you for this opportunity. And I am prepared to answer 
any questions.
    [The prepared statement of Ms. Buller follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you very much for your 
testimony.
    I wanted to ask about Kate Puzey's murder. As you know, in 
March 2009, Kate, a Peace Corps volunteer serving as a teacher 
in Benin, Africa, was murdered. Shortly before that terrible 
crime, Kate sent an e-mail to the country director identifying 
her accused killer, a teacher, and as engaging in inappropriate 
relationships with and sexually harassing students.
    Kate requested that the e-mail remain anonymous. However, 
the agency's Inspector General later found that this e-mail was 
mishandled. And I have some questions about that. Can you tell 
us what happened? Did the Peace Corps terminate the employment 
of those responsible?
    And suppose that lamentably this exact same scenario 
repeated itself, a Peace Corps volunteer reported to the Peace 
Corps officials about an individual who could pose a risk to 
the volunteer safety and requesting anonymity obviously. How 
would the Peace Corps today protect that volunteer?
    And, lastly, are there any legislative measures that we can 
take to strengthen safety and security in support of 
prosecutions in foreign countries?
    Ms. Buller. My office did conduct a review, an 
administrative review, of the information flow that occurred 
prior to the death of Kate Puzey. What we did find was that the 
e-mail that she sent confidentially to the country director and 
additionally another person was compromised, that this 
information was inappropriately disclosed.
    Chairman Ros-Lehtinen. What happened to the employment of 
those responsible for the e-mail and the outing of the person 
who sent that e-mail, Kate?
    Ms. Buller. None of those individuals are with the Peace 
Corps anymore.
    Chairman Ros-Lehtinen. Are they no longer in the Peace 
Corps because of this or for other reasons?
    Ms. Buller. They are no longer in the Peace Corps because 
of this.
    Chairman Ros-Lehtinen. They are no longer in the Peace 
Corps because of this?
    Ms. Buller. Yes.
    Chairman Ros-Lehtinen. Suppose that a volunteer would send 
communications or would somehow communicate to a Peace Corps 
official about a problem that that volunteer is incurring in 
asking for anonymity. How would the Peace Corps protect that 
volunteer today? What has changed?
    Ms. Buller. Today there is a protocol in place or policy in 
place that mandates that any allegation by a volunteer or a 
trainee that is made in confidence be kept in confidence and 
held in the closest discretion by Peace Corps staff receiving 
that allegation. The volunteer or the trainee is also advised 
that they can come to the IG and actually are encouraged to 
come to the IG with these allegations since we handle 
confidential allegations all the time and actually have a 
statutory mandate to keep our allegations confidential.
    Chairman Ros-Lehtinen. Thank you. Understanding how 
difficult it is to get prosecutions in foreign countries, 
before we enter into agreements to send volunteers to the 
countries, is the Peace Corps being aggressive with the host 
country in saying that these cases must be handled in the 
serious manner that they merit?
    Ms. Buller. I believe that the director was probably in the 
best position to answer that question. From our perspective, 
there are some things that just won't be prosecuted overseas. 
It would be helpful if we had the ability to prosecute them 
here. There could be a legislative change that would allow the 
U.S. to have jurisdiction of some violent crimes committed 
against Peace Corps volunteers.
    For example, if they were considered to be employees of the 
United States Government, for purposes of that type of a 
prosecution, they are currently considered employees for FECA 
purposes. So it would be along those similar lines.
    Chairman Ros-Lehtinen. Thank you.
    Has the Peace Corps implemented--I know you spoke about it 
in your testimony--all of your audit recommendations regarding 
safety and security? If not, which ones remain open? And, what 
is the most important change that the agency can make to 
improve safety and security?
    Ms. Buller. I want to just clarify your question, Madam 
Chairman, if I can. Are we talking about the audit or the 
evaluation? Either one?
    Chairman Ros-Lehtinen. Either one. It was about the audit, 
but the evaluation is good, too.
    Ms. Buller. I would like to address the evaluation in 
particular since those recommendations, the ones that are 
currently open have been open since 2008. The recommendations 
we made in the evaluation that are continuing to be open 
concern the accuracy of incident reporting, volunteer incident 
reporting. We would like the agency to have the country 
director review those incident reports before they are 
submitted to headquarters. That is still open.
    We also would like the Office of Safety and Security to 
provide pre-service training to volunteers and how they can 
effectively respond to a violent attack in a culturally 
appropriate way given the country that they are in. That has 
not happened.
    We also would like the regional directors to establish 
housing criteria and make sure that housing criteria is 
implemented across the board. That remains open.
    We also would like the Office of Safety and Security to 
make sure that all of its staff is trained in making certain 
that all of the safety and security recommendations are 
complied with.
    There is an open recommendation concerning the Emergency 
Action Plans. We made the recommendation that they be tested 
yearly and in a variety of situations, not just a single 
situation--that remains open--and that the staff when they are 
conducting site development fill out the site locator forms 
that currently the Peace Corps volunteers do on their own, 
instead of having the Peace Corps volunteers fill them out. We 
continually find in our country program evaluations that these 
site locator forms are often not accurate. Our evaluators take 
them to go locate the volunteers. And it is very difficult to 
find them.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Berman?
    Mr. Berman. Thank you.
    Elaborate on this evaluation of Peace Corps response to 
sexual assault. What is the scope of your sexual assault 
review? And what is the method by which you will incorporate 
the view of survivors and currently serving volunteers?
    Ms. Buller. The scope of the review, we have tried to limit 
it to more recent, like the past 2 years or so, with the hopes 
of being able to identify individuals who were with the Peace 
Corps who are still with the Peace Corps who may have been 
involved in the response to the sexual assault for the 
volunteer. We are----
    Mr. Berman. You are talking about the staff of the Peace 
Corps?
    Ms. Buller. Staff. Yes, sir. Staff. Given the 5-year rule 
and----
    Mr. Berman. This is about staff response?
    Ms. Buller. Yes, staff response. Yes, sir. We are reaching 
out to various organizations. We have reached out to First 
Response and asked them to reach out to its members to allow 
them to come in and speak with us about their circumstances. 
We, of course, don't want to just call sexual assault victims 
out of the cold and start asking them questions and make them 
relive their trauma. So we are soliciting input through 
organizations who have contact with those individuals.
    Mr. Berman. So in this case, your evaluation isn't just 
focused on your examination of what the staff tells you they 
responded, but you are trying to get a base of data from the 
victims about their views of how the staff responded?
    Ms. Buller. Exactly, Congressman. We're trying to get their 
view of how the staff responded and try to marry it up with 
what we find in the records that the Peace Corps has.
    Mr. Berman. Okay. In your 2010 audit, you stated that Peace 
Corps didn't have an adequate process to ensure potential 
volunteers are fully informed of the security risks before 
being sent overseas. Do you feel that Peace Corps has 
sufficiently addressed this issue that was disclosed in your 
2010 audit?
    Ms. Buller. That particular recommendation remains open at 
this time. We are currently working with the agency to try to 
address it, but as of this time, it has not been addressed.
    Mr. Berman. That is, fully disclosing the security risks of 
the place where that person is going to be based before they 
leave Washington?
    Ms. Buller. Yes, sir. We recommended that that be done at 
staging when they bring all of the trainees into Washington or 
whatever other----
    Mr. Berman. Not in-country?
    Ms. Buller. Not in-country.
    Mr. Berman. And you have done audits relating to the 
medical office of the Peace Corps as well as the safety and 
security office. How do you think a victim's advocate logically 
would fit in this structure in terms of dealing with the 
medical office and the safety and security office?
    Ms. Buller. I think where they placed the position 
currently in Peace Corps is probably the best place for it. 
They placed it directly under the Director. So that person 
doesn't report to anybody but the Director and will have 
communications between both the medical staff and the office 
of----
    Mr. Berman. Those offices, the medical office, the safety 
and security office, will have obligations to provide 
information that the victims' advocate requests?
    Ms. Buller. That is my understanding of how it works. Yes, 
sir.
    Mr. Berman. So you think they are placed right to get this 
information?
    Ms. Buller. I think the person who would seek that 
information, it would be required that they report directly to 
the Director to have the hammer I guess is what you call it to 
make people respond to them, yes.
    Mr. Berman. Thank you, Madam Chairman. I yield back my 50 
seconds.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman.
    Mr. Smith?
    Mr. Smith. Thank you very much. Thank you for your reports. 
You have done a wonderful job.
    Let me ask. You heard Mr. Aaron Williams, I should say, say 
earlier in response to my question in 2009, there were 61 
percent of those where there was an allegation made that 
resulted in an arrest. Do we know what happened before, in '08 
and '07, what has happened in 2010? And does your office have 
any information about what happened after those arrests in 
terms of convictions and people actually serving time in prison 
before that?
    Ms. Buller. No. My office does not have that information. I 
can get the information for you from the previous years and 
supply that for the record.
    Mr. Smith. Okay. Is that something that you could look into 
and----
    Ms. Buller. Yes, sir.
    Mr. Smith. But I am talking about the conviction rates and 
the incarceration and for how many years because obviously the 
crime and the punishment should be commensurate with the crime, 
the punishment ought to be.
    Ms. Buller. Yes. That is something we could definitely look 
into.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Smith. Because that will give us a better barometer, I 
would suggest, respectfully, as to whether or not a country is 
serious. They may give us a ton<greek-l>? deg. of rhetoric, but 
it really does lie in whether or not these men go to prison.
    Let me just ask you, if I could, about when it comes to 
safety versus mission, I would argue that safety trumps 
everything. Mission is important, but there is not an 
acceptable risk for a Peace Corps volunteer, really.
    Some people in the State Department choose hazardous 
deployments. They get hazardous pay. Very often they go without 
their spouse and family because of it. Are there places that 
ought to be deemed off limits where there has been a pattern of 
abuse in not just countries but subdivisions within those 
countries where that area ought to be put off limits?
    Ms. Buller. That is a very good question, Congressman. That 
is really a management decision that should be made by the 
agency. My office can review those decisions and make 
assessments as to whether or not they have applied the criteria 
that they have developed in order to make those placements, but 
that is a management decision.
    Mr. Smith. Is it something you might include in your 
recommendations? Because it seems to me that in response to the 
IG, you have provided the blueprint for the Peace Corps to act. 
So perhaps you could incorporate that into your general 
recommendations because it seems to me to send a women, you 
might say, ``Oh, this country is fine but not that part of the 
country'' and she walks right into harm's way.
    Let me ask you, too. You have testified that many of your 
recommendations remain enacted upon. Are there instances where 
the Peace Corps has gone beyond what the IG has recommended? 
Have they been proactive in areas that even your office did not 
anticipate or are they reactive?
    Ms. Buller. They are primarily reactive. I can't think of a 
situation off the top of my head. If I do, however, I will 
provide it to you for the record.
    Mr. Smith. Okay. I mean, it is unfortunate. They should be 
exceeding. Once you brought the attention back in the early 
part of this decade, they should have been working on this 
night and day to ensure that those women are in the safest 
environment imaginable. And to think that year in/year out they 
might, some women might, be going back to where 2 years ago 
this same program director, like in Nepal, where Carol Marie 
Clark, as you heard, testified that the Nepalese Peace Corps 
program director was telling her and other women that in order 
to get their checks, they had to have sex with him and that the 
volunteer country director said that they ought to get a 
thicker skin to deal with that kind of harassment and threat.
    So the next question would be, what happens to people? Is 
there any record of what has happened when an allegation is 
made against a superior, whether it be indigenous to that 
country or an American serving abroad? Are charges brought 
against them? And how do we vet?
    I mean, it seems to me that this program director because 
he did rape her eventually, as she testified, this director 
found a place where he would have an ongoing group of women 
coming in, would wait for the opportunity if he couldn't coerce 
them to begin with. In this case, she was partying, couldn't 
stop him. And how many times did he do it before and after?
    I'm sure she was not the only one that he raped. And I'm 
wondering what happens to somebody like that? You know, we have 
found, I would say, Madam Chair, in the area of peacekeeping 
because I have held hearings on the deployment of peacekeepers 
in DR Congo and elsewhere who rape 13-year-olds. And then they 
find themselves on another redeployment somewhere else under 
the zero tolerance policy of the Secretary General of the 
United Nations. If you could speak to that, please?
    Ms. Buller. There are processes in place for getting rid of 
local hire staff, where they are PSCs or direct hires. I think 
the better provision would be not to hire people like that. And 
we have made recommendations concerning the lack of security 
background checks for host country staff and contractors.
    There has been, as I said in my testimony, 44 percent of 
countries that we went into did not comply with that--and it 
has gone up since they changed the requirements to include 
short-term contractors.
    So there is a real need for compliance with that particular 
recommendation. And if they did comply with it, situations like 
that would be prevented.
    Mr. Smith. I would hope--and I hope the Peace Corps takes 
this to heart--that if there is one instance of an allegation 
being made, that is enough to trigger a significant 
investigation so we don't wait until that woman herself is 
raped or others who are in a similarly vulnerable position.
    Thank you so much.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Smith.
    Thank you, Ms. Buller. And we are all highly supportive of 
the great mission and the work of the Peace Corps. We want to 
make sure that it is a polished jewel and that we will make the 
recommendations that we hope the Peace Corps will implement to 
secure the safety of all of the volunteers and change the 
culture from blaming the victim to supporting the victim and 
holding the perpetrators of this violence accountable for their 
acts.
    And, with that, our committee is adjourned. Thank you.
    [Whereupon, at 12:35 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>QFRs Williams/Ros-Lehtinen deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>QFRs Williams/Smith deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Connolly statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Tsongas statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>ISTSS statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
